To learn more about the OIG’s   Semiannual Report to the Congress
    work visit the website:
      www.oig.dol.gov                         Office of Inspector General
                                               U.S. Department of Labor




                                                  April 1 – September 30, 2006
                                                                   Volume 56
     A Message from the
      Inspector General

I am pleased to submit this Semiannual Report to the Congress, which highlights the significant
activities and accomplishments of the Office of Inspector General (OIG) for the six-month period
ending September 30, 2006. During this reporting period, our investigative work led to 295
indictments, 260 convictions, and over $76 million in monetary accomplishments. In addition, we
issued 66 audit reports and questioned $90.2 million in costs.

During this reporting period, the OIG continued to provide audit and investigative oversight of
the Department of Labor’s (DOL’s) response to Hurricanes Katrina and Rita. We issued six
management letters related to this effort. One of the letters identified individuals who had
received disaster unemployment assistance (DUA) from one state, while also receiving DUA or
state unemployment compensation from another state. In addition, an OIG investigation led to
the indictment of a disaster-reconstruction company owner who had allegedly neglected to pay
approximately $1.4 million in employee taxes owed to the Federal and state governments.

OIG audits included significant recommendations to address vulnerabilities identified in DOL
programs and operations. For example, we issued a performance audit that determined that
DOL’s coal mine hazardous condition complaint process needed improvement. We also
conducted several audits assessing the adequacy of the Department’s information security
program and identified challenges in the areas of access controls and protection over personally
identifiable information.

Our investigations continue to combat labor racketeering in the workplace and fraud involving
DOL programs. One particular investigation resulted in several former high-ranking officials of
Laborers’ International Union of North America Local 91 in the State of New York either
pleading guilty or being sentenced for conspiring to commit violations of the Hobbs Act.

Another significant case involved Ralphs Grocery Company. Ralphs pled guilty to several felony
counts related to charges that it illegally rehired locked-out workers during the supermarket
labor dispute in Southern California more than two years ago. In June 2006, the company
agreed to pay $70 million in fines and restitution.

Finally, recognizing the need to collaboratively combat document and benefit fraud, the OIG
joined with the Departments of Homeland Security, Justice, State, and other agencies to form
task forces in 10 major cities. Led by the U.S. Immigration and Customs Enforcement, the task
forces have been highly effective in targeting criminal organizations and ineligible beneficiaries
engaged in this type of fraud. In one case, an investigation found that the owner of a labor
leasing company used counterfeit labor certification forms to apply for at least 250 green cards.
The owner of the company pled guilty to charges and faces 37 to 46 months’ incarceration.

The OIG remains committed to promoting the economy, integrity, effectiveness, and efficiency
of DOL programs and detecting waste, fraud, and abuse against those programs. I would like to
express my sincere appreciation to a professional and dedicated OIG staff for their significant
achievements during this reporting period.




Gordon S. Heddell
Inspector General
                  Contents



Selected Statistics.........................................................................................................................2
Significant Concerns .....................................................................................................................3


Labor Racketeering
Internal Union Investigations.........................................................................................................9
Benefit Plan Investigations..........................................................................................................11
Labor-Management Investigations..............................................................................................16
Worker Safety, Health, and Workplace Rights
Mine Safety and Health Administration.......................................................................................18
Occupational Safety and Health Administration..........................................................................22
Employment and Training Programs
Job Corps....................................................................................................................................23
Workforce Investment Act...........................................................................................................28
Welfare-to-Work..........................................................................................................................31
Foreign Labor Certification..........................................................................................................33
Worker Benefits Programs
Unemployment Benefits..............................................................................................................37
Office of Workers’ Compensation Programs...............................................................................43
Departmental Management
Information Technology ..............................................................................................................46
Procurement ...............................................................................................................................49


Legislative Recommendations ....................................................................................................51
Appendix .....................................................................................................................................55




Semiannual Report to Congress                                                                                                                 1
April 1, 2006–September 30, 2006
                                                                                 For April 1, 2006–September 30, 2006
         Selected Statistics


Selected Statistics


Investigative recoveries, cost-efficiencies, restitutions,
fines and penalties, forfeitures, and civil monetary action ...................................... $76 million

Investigative cases opened................................................................................................. 325

Investigative cases closed .................................................................................................. 321

Investigative cases referred for prosecution ....................................................................... 163

Investigative cases referred for administrative/civil action .................................................. 180

Indictments.......................................................................................................................... 295

Convictions ......................................................................................................................... 260

Debarments .......................................................................................................................... 24




Audit and other reports issued .............................................................................................. 66

Total questioned costs .......................................................................................... $90.2 million

Outstanding questioned costs resolved during this period ................................... $10.0 million
   Allowed1 ............................................................................................................ $8.8 million
   Disallowed2 ....................................................................................................... $1.2 million




Note: The OIG conducts criminal investigations of individuals that can lead to prosecutions based on criminal
complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful prosecutions may carry
sentences such as fines, restitutions, forfeitures, or other monetary penalties. The OIG’s financial accomplishments,
which include administrative and civil actions, are further detailed and defined in the Appendix of this report.

1 Allowed means a questioned cost that the DOL has not sustained.
2 Disallowed means a questioned cost that the DOL has sustained or has agreed should not be charged to the
  government.




Semiannual Report to Congress                                                                                                               2
April 1, 2006–September 30, 2006
     Significant Concerns


Significant Concerns
                     The OIG provides information and assistance to the Department and
                     Congress in achieving efficient and effective management of DOL programs.
                     As part of our effort to focus attention on mission-critical management
                     problems and their resolution, the OIG has identified the following areas that
                     we consider vulnerable to mismanagement, error, fraud, waste, or abuse.

        Mine Safety and Health Administration
                     Recent fatalities and increased production in the coal industry have
                     heightened concerns for the safety and health of the nation’s coal miners. In
                     response to coal mine catastrophes that occurred earlier this year, Congress
                     enacted the Mine Improvement and New Emergency Response (MINER) Act
                     of 2006 to provide for updated emergency response plans, increased training
                     and availability of rescue teams, improved communication technology, and
                     training programs for miners and mine inspectors. Because of these
                     developments, the OIG has recently increased its oversight of DOL’s Mine
                     Safety and Health Administration (MSHA).
                     The hazardous condition complaint process and Accountability Program
                     administered by MSHA’s Office of Coal Mine Safety and Health (CMS&H) are
                     key components of MSHA’s capability to protect the safety and health of the
                     nation’s coal miners. Two recent OIG reports identified the need for
                     improvement in these areas:
                             •     CMS&H’s hazardous condition complaint process provides for
                                   immediate inspections in response to certain alleged hazards. An
                                   OIG report made a number of recommendations, including that
                                   MSHA ensure that complaints are recorded accurately and
                                   completely, quantify the expectation of evaluation and inspection
                                   timeliness, and ensure that complaint evaluations and inspections
                                   are consistent with the Mine Safety and Health Act of 1977and
                                   MSHA policy.

                             •     MSHA’s Accountability Program evaluates the quality of MSHA
                                   enforcement activities through peer reviews of district activities.
                                   The OIG recommended improvements to increase the validity and
                                   management oversight benefits of CMS&H’s program through the
                                   implementation of a standard process for selecting mines to be
                                   reviewed, and improved procedures for conducting and reporting
                                   on review activities and tracking corrective actions. Budget
                                   limitations and the potential loss of experienced enforcement
                                   personnel increase the challenges to MSHA as it strives to carry
                                   out its mission and implement the requirements of the MINER Act.

        Information Technology Security
                     The Department’s information technology (IT) systems include major
                     applications, general support systems, and mission-critical systems, many of



Semiannual Report to Congress                                                                       3
April 1, 2006–September 30, 2006
     Significant Concerns

                     them sensitive. DOL relies on these critical information systems to carry out
                     its mission, including monitoring and analyzing the nation’s labor market and
                     economic activities, managing workforce services, and protecting and
                     compensating American workers.
                     With continuous new developments in IT come new threats to IT system
                     security. We are concerned with the Department’s ability to keep up with
                     these developments and threats in order to ensure adequate security and
                     safeguarding of DOL IT systems and data. Our work has shown that the
                     Department’s overall information security program could be improved by
                     placing a priority on access controls in high- and medium-risk systems,
                     including those containing sensitive information. This would help reduce the
                     risk of unauthorized access to systems and sensitive information, including
                     information that is accessed remotely or physically transported or stored
                     outside Department facilities. Without strong access controls, the Department
                     is vulnerable to unauthorized access and changes to its information systems,
                     which could ultimately impact the integrity of data generated and stored by
                     the systems to carry out DOL’s mission. The exploitation of security
                     weaknesses could affect the Department’s delivery of high-quality services to
                     its customers and the accuracy and completeness of the information made
                     available for use by Congress, other government organizations, and the
                     public.

        Procurement
                     The OIG continues to be concerned about DOL’s procurement activities. This
                     Semiannual Report describes three audits that identified problems with
                     departmental procurement activities related to compliance with the Federal
                     Acquisition Regulation and Small Business Administration requirements.
                     Also, as previously reported, prior OIG audits identified issues relating to the
                     Department’s organizational structure that compromise the effectiveness and
                     integrity of the procurement function by inadequately segregating
                     responsibilities for program and procurement activities. To address the prior
                     issues, the OIG recommended that the Department create an independent
                     Acquisition Office, reporting directly to the Deputy Secretary, that would
                     supervise the Department’s acquisition workforce.
                     The Services Acquisition Reform Act of 2003 (SARA) requires DOL and other
                     executive agencies to appoint a Chief Acquisition Officer (CAO) whose
                     primary duty is acquisition management. However, DOL’s current
                     organization continues to be out of compliance with that requirement.
                     Currently, the Assistant Secretary for Administration and Management
                     (ASAM) serves as the CAO in addition to carrying out other primary duties,
                     some of them programmatic, associated with that position. This will be further
                     exacerbated as the Department places regional contracting authority for the
                     Job Corps program under the ASAM. The OIG continues to call on the
                     Department to establish an organizational structure that both meets the
                     requirements of SARA and resolves the inadequate segregation of duties that
                     exists under the current configuration.




Semiannual Report to Congress                                                                      4
April 1, 2006–September 30, 2006
     Significant Concerns

        Job Corps Program
                     As discussed in several reports issued during this Semiannual Report period,
                     the OIG continues to have concerns regarding the Job Corps program,
                     particularly in the areas of center oversight, student safety and health, and
                     procurement. Performance-based contracts continue to pose risks that
                     contractors will misrepresent performance to receive not only payment for
                     services that were not provided, but also performance incentive payments. A
                     recent audit showed that a Job Corps center significantly overstated its
                     employment and educational placement outcomes. One reason this occurred
                     was because the responsible regional office’s monitoring procedures were
                     ineffective. Two regional monitoring reports had identified systemic
                     weaknesses in the office’s placement verification process, but no formal
                     corrective action was taken. Further, the regional office did not comply with
                     the requirement to report potential fraud incidents to the OIG through the
                     Department’s Incident Reporting System. Our audit report of a National Park
                     Service (NPS)-operated center identified several conditions that posed health
                     and safety risks to the center’s student and staff population that warranted
                     immediate corrective actions. Job Corps had previously identified these
                     conditions but did not ensure that NPS adequately addressed them. Finally,
                     an audit of one Job Corps regional office’s procurement activities found that
                     improvements were needed to ensure full compliance with the Federal
                     Acquisition Regulation.
                     The review and assessment of the Job Corps program being undertaken by
                     the Department as part of the program’s transfer to the Office of the
                     Secretary, as well as the Department’s creation of a Job Corps Advisory
                     Committee to evaluate the program, present an opportunity to consider these
                     and other challenges in improving the program. The OIG will continue to
                     provide audit emphasis of the Job Corps program in the coming year.

        Hurricane Katrina
                     The immediate, massive Federal response that occurred as a result of
                     Hurricanes Katrina and Rita focused on humanitarian assistance and
                     expediting the payment of benefits to those who were directly affected by the
                     devastation. To facilitate these efforts, some internal controls and other
                     requirements were suspended or waived, which increased the opportunity for
                     fraud. Even now, as the focus of Federal efforts shifts toward disaster
                     recovery and reconstruction, our reviews continue to identify abuses in the
                     DOL programs that were intended to provide immediate benefits to workers
                     who became unemployed or dislocated by the disasters, as well as to identify
                     new risks that are posed during the recovery and reconstruction phase.
                     These abuses and risks hold valuable lessons regarding controls and
                     mechanisms that should be in place before the next disaster strikes.
                     Our audits have identified numerous cases of individuals receiving both
                     Disaster Unemployment Assistance (DUA) and Unemployment Insurance
                     (UI), or receiving either DUA or UI while also receiving DOL-funded Public
                     Service Employment (PSE) wages. In the case of Louisiana, the State waived
                     the requirement for claimants to submit DUA eligibility documentation for the



Semiannual Report to Congress                                                                   5
April 1, 2006–September 30, 2006
     Significant Concerns

                     first 90 days, and was challenged to process the high volume of
                     documentation that was subsequently submitted. In addition, the National
                     Directory of New Hires (NDNH)—a mechanism for identifying claimants who
                     went to work in other states but failed to report their employment, and who
                     thus may no longer have been eligible for benefits—was not initially used by
                     Louisiana. Another underused tool is the real-time connection to the Social
                     Security Administration (SSA) database, which allows states to confirm the
                     accuracy of information provided by claimants before claims are established.
                     Our ongoing work regarding the misuse of Social Security numbers to obtain
                     unemployment benefits is showing that the SSA database would have been
                     an effective compensating control to prevent overpayments and fraud
                     resulting from the misuse of Social Security numbers following the
                     hurricanes.
                     In the area of National Emergency Grants (NEGs), our ongoing work
                     identified a concern regarding NEG participants meeting the eligibility criteria
                     for training. In the State of Mississippi, we found that $1.8 million in NEG
                     funding was used to cover the educational expenses of over 500 students
                     who were mass enrolled in NEG-funded college courses, even though they
                     were already attending college. Moreover, the State accepted eligibility self-
                     certifications without later verifying the students’ eligibility for training.
                     Based on our findings to date, the OIG believes that the use of the NDNH,
                     the real-time connection to the SSA database, and post-verification of
                     eligibility self-certifications are important tools that can increase the integrity
                     of DOL assistance programs on a daily basis, not just in times of disaster.
                     With respect to the investigative efforts of the OIG in response to the
                     hurricanes, the OIG initiated a two-phased approached to the unprecedented
                     workload brought on by this natural disaster. Phase I focused on addressing
                     the thousands of possible cases of fraudulent claims for UI and DUA benefits.
                     As part of this effort, the OIG has opened over 270 investigations to date,
                     which have resulted in 28 arrests, 43 indictments, and 25 convictions.
                     Phase II of the OIG’s investigative work commenced in May 2006 and is
                     concentrating on labor racketeering schemes in reconstruction and debris
                     removal. Finally, as part of the overall investigative response, the OIG is
                     participating in several Federal, state, and local Hurricane Katrina Fraud Task
                     Forces nationwide.

        Foreign Labor Certification
                     For several years, the OIG has reported significant concerns about the
                     current practice of substituting alien beneficiaries on permanent foreign labor
                     certification program applications and the resulting certifications. In February
                     2006, the Employment and Training Administration (ETA) published a
                     proposed rule change that would eliminate this practice. The proposed rule
                     would also establish a 45-day period for employers to file approved
                     permanent foreign labor certifications in support of a petition with the U.S.
                     Citizenship and Immigration Services agency of the Department of Homeland
                     Security. The proposed rule also expressly prohibits the sale, barter, or



Semiannual Report to Congress                                                                         6
April 1, 2006–September 30, 2006
     Significant Concerns

                     purchase of permanent foreign labor applications and certifications. In
                     addition, the proposed rule restates current law regarding the submission of
                     fraudulent or false information, clarifies DOL procedures for handling possible
                     fraud, and adds a procedure for debarment from the program.
                     We are encouraged by ETA’s proposed rulemaking actions and its
                     establishment of fraud awareness measures within the permanent foreign
                     labor certification program. In addition, we acknowledge and appreciate
                     ETA’s sharing of information regarding potential program fraud, as well as its
                     assistance in combating the same. Equally appreciated are the contributions
                     of the Department of Homeland Security and the Department of Justice in
                     helping to identify and prosecute those who seek to intentionally violate laws
                     intended to ensure the integrity of the program. These are all positive and
                     hopeful developments; however, until the proposed rule change is finalized
                     and determined to be an effective method of significantly reducing and
                     preventing fraud in the program, the amount of that fraud remains an area of
                     concern.




Semiannual Report to Congress                                                                     7
April 1, 2006–September 30, 2006
      Labor Racketeering

                     The OIG at the DOL is unique among inspectors general in that it has an
                     “external” program function to conduct criminal investigations to combat the
                     influence of labor racketeering and organized crime in the nation’s labor
                     unions. Labor racketeering is the infiltration, domination, and/or use of a
                     union or employee benefit plan for personal benefit by illegal, violent, or
                     fraudulent means. Organized crime is defined as activities carried out by
                     groups with a formalized structure whose primary objective is to obtain
                     money through illegal activities. Traditionally, organized crime has been
                     carried out by La Cosa Nostra (LCN) groups, also known as the “mob” or the
                     “Mafia.” According to the Department of Justice, however, there has been a
                     rapid rise in transnational organized crime groups engaging in new criminal
                     enterprises. There are now organized crime groups that include people from
                     Asia, Russia, Eastern Europe, Nigeria, and West Africa.

                     Traditional Organized Crime Over the past two decades, the OIG has
                     conducted extensive criminal investigations of labor racketeering.
                     Traditionally, organized crime has been involved in loan-sharking, gambling,
                     benefit plan fraud, violence against union members, embezzlement, and
                     extortion. Our investigations continue to identify complex financial and
                     investment schemes used to defraud pension assets, resulting in millions of
                     dollars in losses to plan participants. The schemes include embezzlement or
                     more sophisticated devices, such as fraudulent loans or excessive fees paid
                     to corrupt union and benefit plan service providers.


                     Nontraditional Organized Crime Our current investigations are
                     documenting an evolution of labor racketeering and organized crime
                     corruption. We are finding that nontraditional organized crime groups are
                     engaging in racketeering and other crimes against workers in both union and
                     nonunion environments. Moreover, they are exploiting the DOL’s foreign labor
                     certification and Unemployment Insurance (UI) programs.


                     Impact of Labor Racketeering Labor racketeering activities carried out by
                     organized crime groups affect the general public in many ways. Because
                     organized crime’s exercise of market power is usually concealed from public
                     view, millions of consumers unknowingly pay what amounts to a tax or
                     surcharge on a wide range of goods and services. In addition, by controlling a
                     key union local, organized crime can control the pricing in an entire industry.
                     The public also suffers when organized crime orchestrates illicit strikes and
                     work slowdowns or resorts to violence to maintain its operation of labor
                     rackets.

                     The following cases are illustrative of our work in helping to eradicate both
                     traditional and nontraditional labor racketeering in the nation’s labor unions,
                     employee benefit plans, and workplaces.




Semiannual Report to Congress                                                                     8
April 1, 2006–September 30, 2006
                                                                   Internal Union Investigations
      Labor Racketeering


Internal Union Investigations
                     Our internal union cases often involve instances of corruption, such as union
                     officers who abuse their positions of authority to embezzle money from union
                     accounts for their own benefit. Investigations in this area also focus on
                     situations in which organized crime groups control or influence a labor
                     organization, frequently to exercise influence in an industry for corrupt
                     purposes or to operate traditional vice schemes, such as drug dealing and
                     theft. Following are examples of our work in this area.

        Civil RICO Rids ILA of Corrupt Conduct and Ties to
        Organized Crime
                     On April 24, 2006, Peter Gotti, the former Boss of the Gambino LCN Family,
                     signed a Consent Judgment and Decree designed to put an end to his control
                     of the International Longshoremen’s Association (ILA).
                     Gotti is currently incarcerated after being convicted of criminal Racketeer
                     Influenced and Corrupt Organizations (RICO) violations. Gotti’s influence was
                     a key factor in a scheme involving the awarding of a lucrative service provider
                     contract by the ILA Management International Longshoremen’s Association
                     (MILA) Managed Health Care Trust Fund to a company associated with the
                     Gambino LCN family.
                     In signing the Consent Judgment and Decree, Gotti agreed to the relief
                     sought by the Government pursuant to a civil RICO investigation. According
                     to the terms of the Decree, Gotti is permanently enjoined from participating in
                     any way in the affairs of the ILA and its benefit plans, participating in the
                     affairs of any other labor organization, engaging in acts of racketeering,
                     knowingly associating with members or associates of organized crime,
                     knowingly associating with any person barred from participating in any labor
                     organization or employee benefit plan, and participating or investing in any
                     activity on the waterfront.
                     In July 2005, a civil complaint was filed (amended February 2006) to both end
                     the influence of organized crime within the ILA and its related benefit funds
                     and to seek the appointment of a monitor to enforce democratic reforms
                     enabling the ILA to become a corruption-free labor organization. The benefit
                     funds cited in the complaint include ILA MILA Health & Welfare Fund, the
                     MILA Board, the Metro-ILA Funds, the Board of Trustees of the Metro-ILA
                     Funds, and the Metropolitan Marine Maintenance Contractors Association. All
                     have been enjoined from associating with known criminals, committing acts of
                     racketeering, and interfering with any court-appointed officers.

        Bookkeeper Embezzles Union Funds
                     Leslie Bell, a former bookkeeper and comptroller for Laborers’ International
                     Union of North America (LIUNA) Local 1184, was sentenced on April 10,
                     2006, to 18 months’ incarceration, three years’ supervised probation, and




Semiannual Report to Congress                                                                     9
April 1, 2006–September 30, 2006
                                                                   Internal Union Investigations
      Labor Racketeering

                     ordered to pay restitution in the amount of $156,423. Additionally, Bell was
                     barred from employment in any union for a period of 13 years.
                     After an investigation disclosed that Bell embezzled $178,452 over a three-
                     year period, her employment with Local 1184 was terminated. The
                     embezzlement consisted of forged checks written to pay off creditors and
                     personal tax liabilities, and taking money from union dues. Prior to her
                     sentencing, Bell paid restitution in the amount of $22,028.59 for money used
                     to pay off her credit card debt and that of her husband. This case was worked
                     jointly with the Office of Labor Management Standards (OLMS). U.S. v. Leslie
                     Patricia Bell (C.D. California)

        Sentencing and Indictment in SEIU Embezzlement
        Case
                     Martin Gregory Ludlow, a former City of Los Angeles council member, was
                     sentenced on June 5, 2006, to five years’ probation, ordered to serve 2,000
                     hours of community service, and ordered to pay $36,492 in restitution for his
                     role in a scheme to embezzle money from Service Employees International
                     Union (SEIU) Local 99. Separately, on June 20, 2006, the former president of
                     Local 99, who was removed from office in May 2004 after Local 99 was
                     placed into trusteeship, was charged in a superseding indictment for her role
                     in the scheme. She has been charged with one count of conspiracy to
                     embezzle and 23 substantive counts of embezzlement of union funds.
                     During his 2003 city council campaign, Ludlow sought financial support from
                     the former president of Local 99. The local had approved a $500 political
                     contribution to the Ludlow campaign. Subsequently, Ludlow and the former
                     president conspired to place six campaign workers on the union’s payroll and
                     provide union-paid health benefits to a seventh campaign worker. When their
                     scheme was discovered, they attempted a cover-up by falsifying and
                     backdating documents.
                     As a result of the investigation, Ludlow stepped down from his later position
                     as executive secretary-treasurer of the Los Angeles County Federation of
                     Labor. Under his plea agreement, he is barred from any union-related
                     employment for 13 years and cannot apply to lift the bar before 5 years. This
                     is an ongoing investigation being worked jointly with OLMS and the Federal
                     Bureau of Investigation (FBI). U.S. v. Martin Gregory Ludlow (C.D. California)




Semiannual Report to Congress                                                                   10
April 1, 2006–September 30, 2006
                                                                       Benefit Plan Investigations
      Labor Racketeering


Benefit Plan Investigations
                     The OIG is responsible for combating corruption involving the monies in
                     union-sponsored benefit plans. Those pension plans and health and welfare
                     benefit plans comprise hundreds of billions of dollars in assets. Our
                     investigations have shown that the money remains vulnerable to corrupt
                     union officials and organized crime influence. Pension plan service providers
                     continue to be a strong focus of the OIG’s investigations.

        Ralphs Grocery Agrees to Pay $70 Million for Actions
        Taken During Labor Dispute
                     Kroger subsidiary Ralphs Grocery Company pled guilty on July 26, 2006, to
                     charges of conspiracy, false statements, false representation of Social
                     Security numbers, providing false statements to an employee benefit plan,
                     and identity theft, for its role in a labor dispute. Ralphs agreed to pay
                     $50 million in restitution to current and former employees of Ralphs, and a
                     $20 million fine, to be imposed pending approval of the presiding judge at
                     sentencing.
                     Ralphs illegally rehired approximately 1,000 locked-out grocery workers
                     during a 2003–2004 grocery store labor dispute. The labor action affected
                     approximately 19,000 Ralphs employees who were represented by seven
                     United Food and Commercial Workers (UFCW) locals. During the lockout,
                     Ralphs engaged in a company-wide course of criminal conduct involving the
                     hiring of locked-out employees under false names, Social Security numbers,
                     and documentation, which intentionally undermined the financial integrity of
                     the union and its affiliated benefit plans. Ralphs acted to conceal its hiring of
                     locked-out employees from the unions by assigning locked-out employees to
                     work at stores far from where they regularly worked. Ralphs failed to disclose
                     the locked-out workers to the administrator of the UFCW Joint Pension and
                     Benefit Trust Funds. At the time of this criminal conduct, two executives, who
                     were serving as trustee and alternate trustee to the trust funds, breached
                     their fiduciary duties while serving as Ralphs’ top negotiators with the unions.
                     The company admitted that it benefited from this concealment because the
                     unions did not learn of the illegal rehiring. This case was worked jointly with
                     the Employee Benefits Security Administration (EBSA), the Social Security
                     Administration (SSA) OIG, and the Internal Revenue Service (IRS) Criminal
                     Investigation Division (CID). U.S. v. Ralphs Grocery Company (E.D.
                     California)

        Union Service Provider and Investment Broker Plead
        Guilty in Embezzlement Scheme
                     Michael G. Linder, president of Joseph Anthony & Associates (JAA), pled
                     guilty on June 30, 2006, to charges of embezzlement of union Employee
                     Retirement Income Security Act (ERISA) funds, mail fraud, and theft of
                     honest services. Linder was the compensated third-party administrator for
                     various union-affiliated benefit funds throughout the State of Illinois, including



Semiannual Report to Congress                                                                       11
April 1, 2006–September 30, 2006
                                                                      Benefit Plan Investigations
      Labor Racketeering

                     those of the Ironworkers, Sheetmetal Workers, Plumbers and Pipefitters,
                     Painters and Cement Masons Unions. Linder was fired after Iron Workers
                     Local 498 Retirement Fund officials learned that he received undisclosed
                     commissions from an insurance company to which he sent plan funds to be
                     invested.
                     Linder defrauded the local pension plans by recommending to the trustees of
                     the plans that they change their investments to mutual funds being
                     administered by a specific insurance company. However, instead of causing
                     the plans’ assets to be invested in mutual funds, Linder caused the assets to
                     be invested in group annuity contracts. Under those contracts, and JAA’s own
                     contract, JAA and another corporation operated by Linder received $5 million
                     in fees and commissions between 1996 and 2003.
                     In an unrelated scheme, Linder admitted that, between 1998 and 2003, he
                     had embezzled $1,930,154 from three pension plans and two health and
                     welfare plans by setting up bank accounts for each plan to be used to pay
                     premiums on life insurance or stop-loss insurance policies. Linder overbilled
                     each plan for the insurance premiums and siphoned off the excess amounts.
                     Linder entered a guilty plea on December 10, 2004, for a third scheme in
                     which he had been charged with a racketeering violation for giving two plan
                     trustees each a motorcycle with the intent to influence their actions. Linder
                     awaits sentencing for all three schemes.
                     In a related scheme, Michael J. “Mick” Brdecka, a registered investment
                     broker, pled guilty on June 23, 2006, to charges of making a fiduciary graft
                     payment involving an ERISA benefit plan. Between 1997 and 2000, Brdecka
                     paid fees, kickbacks, commissions, and money totaling $130,000 through a
                     third party to Linder to influence Linder to direct union officials as potential
                     clients to Brdecka’s investment advisors firm. This case was worked jointly
                     with EBSA. U.S. v. Michael G. Linder and U.S. v. Michael J. Brdecka (N.D.
                     Illinois)

        Carpenters Union Official and Training Director
        Found Guilty in Embezzlement Scheme
                     Paul Hernandez and Kenneth Castaldi, former officials of the United
                     Brotherhood of Carpenters and Joiners (UBCJ), were convicted on
                     September 21, 2006, of theft of ERISA benefit funds, theft of union funds,
                     mail fraud, and false statements. Hernandez and Castaldi embezzled funds
                     from a State of Indiana grant that was intended to reimburse UBCJ
                     expenditures for scaffolding training mandated by the Occupational Safety
                     and Health Administration (OSHA). Hernandez was the trustee of the
                     Northwest Indiana UBCJ Joint Apprenticeship Committee (JAC). Hernandez
                     set up a separate checking account specifically to handle the grant fund
                     checks without the knowledge of the State, the JAC, or the union. Hernandez
                     designated himself and Castaldi as signatories on the account. From 1998
                     through December of 2002, Hernandez wrote checks to himself as well as for
                     taxes in excess of $80,000. He also wrote checks to pay for over $28,000 in
                     credit card charges for items unrelated to scaffolding training.



Semiannual Report to Congress                                                                     12
April 1, 2006–September 30, 2006
                                                                      Benefit Plan Investigations
      Labor Racketeering

                     Castaldi, a former training director for the school that was to benefit from the
                     grant, wrote checks in excess of $15,000 to himself from 1998 through
                     August of 2001. Hernandez and Castaldi also wrote checks in excess of
                     $16,000 to pay a clerical secretary over whom they both exercised
                     supervisory influence. This case was worked jointly with EBSA. U.S. v. Paul
                     Hernandez and U.S. v. Kenneth Castaldi (N.D. Indiana)

        Trustee Charged with Embezzling $3.85 Million from
        Pension and Medical Benefit Plans
                     The owner of a Florida home care services company, who was also the sole
                     trustee to that company’s pension and medical plans, was charged on
                     September 8, 2006, with embezzling $3.85 million from the plans.
                     In the alleged scheme, the defendant transferred funds from the plans to a
                     Las Vegas corporation created by using a fictitious identity. The funds
                     transferred by the defendant were used to purchase bonds totaling $3.85
                     million. The corporation has no other assets other than $1,000 used to
                     establish a bank account and no revenue from operations. Almost
                     immediately after the receipt of the $3.85 million, the defendant and others
                     caused the funds to be retransferred as purported loans to other corporations
                     under the defendant’s control, allowing him to steal assets from the pension
                     and medical plans. A substantial portion of the siphoned funds was infused
                     into the home care services company as working capital. This is a joint
                     investigation with EBSA.

        Union Executive and Service Provider Accused of
        Embezzlement and Kickbacks
                     An indictment unsealed on May 31, 2006, charged a former executive
                     administrator of the Boilermakers National Funds (BNF) and a general
                     contractor with conspiracy, embezzlement from an employee benefit pension
                     plan, embezzlement from a health care benefit program, and offer and
                     acceptance of a kickback to an administrator of an employee benefit plan.
                     From 1999 to 2001 the BNF was allegedly defrauded of approximately
                     $900,000 through the renovation of the BNF building. The BNF authorized
                     approximately $920,000 for the remodeling of the BNF building. However, an
                     analysis of the renovation costs identified that BNF expended approximately
                     $2.2 million to complete the renovations. The executive administrator
                     inappropriately authorized approximately $800,000 more in payments than
                     the value of the work performed during the renovation. This is a joint
                     investigation with EBSA.

        Twenty Indicted in Boston Area International
        Longshoremen’s Association Probe
                     On August 9, 2006, a state grand jury in Massachusetts indicted 20
                     individuals, including 19 members of three Boston area locals of the
                     International Longshoremen’s Association (ILA). The indictments allege that



Semiannual Report to Congress                                                                     13
April 1, 2006–September 30, 2006
                                                                      Benefit Plan Investigations
      Labor Racketeering

                     local ILA union bosses and officials abused their positions of power and trust
                     to orchestrate fraudulent schemes designed to steal benefits from employee
                     benefit funds and defraud employers through no-show jobs. The union
                     bosses are charged with submitting false timesheets and using their power
                     and influence on the docks to get benefits and monies for ineligible
                     individuals, including their own family members.
                     These indictments allege that minor children of Longshoremen were
                     fraudulently placed on the payroll of companies in order to lock in a higher
                     pay rate and greater seniority should that child ever work on the waterfront.
                     The indictments also allege that some Longshoremen worked under the
                     names of others in order to allow those others to meet hourly requirements
                     for certain benefits. Another scheme involved the illegal receipt of state
                     unemployment benefits. The indictments charge that the total monetary loss
                     for these acts is approximately $250,000 to $300,000.
                     This is a joint investigation with the Massachusetts State Police, financial
                     investigators assigned to the Massachusetts Attorney General’s Office, the
                     Massachusetts Division of Unemployment Assistance, and EBSA.

        RICO Conviction and Sentencing for Gambino Crime
        Family Capo
                     Gregory DePalma, a long-standing Gambino Crime Family capo, was
                     sentenced on September 26, 2006, to 12½ years in prison and 3 years’
                     supervised release, and ordered to pay $70,000 in restitution, $50,000 in
                     forfeiture, and a $2,700 special assessment. The sentence was handed down
                     as a result of his conviction on June 6, 2006, on 27 counts, including RICO,
                     theft or embezzlement from an ERISA employee benefit plan, conspiracy,
                     extortion, illegal gambling, loan-sharking, interstate transportation of stolen
                     property, and the receipt of stolen goods. To date, 32 defendants have been
                     convicted and 18 defendants are awaiting sentencing.
                     DePalma’s trial proved his ongoing relationship with James Vetrano,
                     president of United Food & Commercial Workers (UFCW) Local 305.
                     Testimony revealed that Vetrano had facilitated an FBI undercover agent’s
                     use of a fictitious corporation at DePalma’s direction. This was done in order
                     to receive medical and pension benefits from the employee benefit plans of
                     UFCW Local 305, as well as for no-show employees Robert Vaccaro Sr. and
                     Robert Vaccaro Jr., who are, respectively, a Gambino LCN Family member
                     and associate.
                     DePalma’s crew engaged in, among other traditional LCN activities,
                     gambling, extortion, numbers operations, loan-sharking, stolen property,
                     and labor racketeering in New York, New Jersey, and Connecticut. The crew
                     used violence and threats to carry out the activities of their criminal
                     enterprise.
                     In addition, Joseph Moray, a Gambino LCN Family associate,
                     received UFCW Local 305 pension and health benefits on behalf of his
                     company, USA Recycling, Inc., which had been dissolved by the State of
                     New York. Vetrano, Moray, and Vaccaro Jr. pled guilty to the benefits


Semiannual Report to Congress                                                                    14
April 1, 2006–September 30, 2006
                                                                      Benefit Plan Investigations
      Labor Racketeering

                     scheme charges. Vaccaro Sr. pled guilty to other charges in the indictment,
                     including racketeering and extortion. This case is an ongoing joint
                     investigation with the FBI and has included technical assistance and expert
                     trial testimony from the EBSA. U.S. v. Arnold Squitieri, et al. (S.D. New York)




Semiannual Report to Congress                                                                    15
April 1, 2006–September 30, 2006
                                                               Labor Management Investigations
      Labor Racketeering


Labor-Management Investigations
                     Labor-management relations cases involve corrupt relationships between
                     management and union officials. Typical labor-management cases range
                     from collusion between representatives of management and corrupt union
                     officials to the use of the threat of “labor problems” to extort money or
                     benefits from employers.

        Guilty Pleas and Sentencings for Laborers’ Union
        Officials in Racketeering and Extortion Case
                     During the month of August 2006, eight high-ranking officials of the LIUNA
                     Local 91 pled guilty or were sentenced for their roles in a conspiracy to
                     commit violations of the Hobbs Act. Through their violent scheme, Local 91
                     officials extorted both local and out-of-town businesses of their right to hire
                     and retain workers of their choice at construction projects in Niagara County,
                     New York.
                     Former Local 91 officials who pled guilty on August 1, 2006, to charges of
                     racketeering conspiracy include: Mark Congi, former president and business
                     agent; Albert Celeste, former assistant business agent; and Paul Bellreng,
                     former Local 91 steward and picket captain. On that same day, Joel Cicero,
                     Local 91’s former vice president and training director, pled guilty to charges of
                     Hobbs Act extortion.
                     The four individuals sentenced between August 21 and 25, 2006, in addition
                     to receiving terms of incarceration and orders to pay restitution, were each
                     barred from holding any type of union office for a period of 13 years. These
                     former Local 91 officials, at the behest of other former union leaders,
                     committed acts of violence and property sabotage in an effort to extort both
                     union and nonunion tradespersons out of their rightful jobs. Dominick
                     Dellaccio, former business manager and president of Local 91, was
                     sentenced to 38 months in prison and ordered to pay $20,000 in restitution.
                     Salvatore Bertino, former vice president and union steward, and Andrew
                     Shomers, former union steward, were each sentenced to 51 months’
                     imprisonment followed by two years of supervised release, and ordered to
                     pay restitution of $30,000. For his participation in a violent attack upon four
                     members of the Bricklayers’ Union, Anthony Cerrone, a former laborer for
                     Local 91, was sentenced to 27 months’ imprisonment followed by two years
                     of supervised release, and ordered to pay restitution of $20,000.
                     Including these latest judicial actions, there have been a total of three
                     indictments and 18 convictions in this case. The first indictment, which was
                     handed down in May 2001, charged 14 members of Local 91 with Hobbs Act
                     violations. Since then, there have been two superseding indictments, which
                     included additional counts of Hobbs Act extortion and interstate transportation
                     in aid of racketeering.
                     This is a joint investigation with the FBI, the New York State Police Special
                     Investigations Unit, the Niagara County Sheriff’s Department, and the
                     Niagara Falls Police Department. U.S. v. Mark Congi, et al. (W.D. New York)


Semiannual Report to Congress                                                                      16
April 1, 2006–September 30, 2006
                                                              Labor Management Investigations
      Labor Racketeering

        Taft-Hartley Violations and Extortion Result in Guilty
        Verdicts for Union Officials
                     Donny Douglas, a former United Auto Workers (UAW) international servicing
                     representative, and Jay Campbell, a former shop committee chairman for
                     UAW Local 594, were found guilty on June 27, 2006, of conspiracy to violate
                     the Taft-Hartley Act and extortion. A third defendant, William J. Coffey, also a
                     union representative, died in the period between the indictment and the trial,
                     and charges against him were posthumously dismissed.
                     Between August 1995 and August 1997, Douglas, Campbell, and Coffey,
                     using their union positions, conspired during and between various collective
                     bargaining events with General Motors (GM) to demand the hiring of family
                     members into skilled trades positions. The defendants knew these family
                     members were not qualified for those positions and that such hiring was in
                     violation of the normal hiring process that existed in the union contract with
                     GM. Furthermore, their demands threatened the settlement of ongoing
                     negotiations between Local 594 and GM, culminating with a threat to prolong
                     an 87-day strike that occurred in 1997.
                     To avert the continuation of the strike, GM conceded to the illegal demands.
                     This strike idled approximately 5,000 workers. The strike was estimated to
                     have cost GM in excess of $400 million and was the longest strike at GM
                     since 1970. This was a joint investigation with the FBI. U.S. v. Donny G.
                     Douglas and U.S. v. Jay D. Campbell (E.D. Michigan)

        Four Indicted in Scheme to Defraud New York City
        Contracts of $10 Million
                     On April 7, 2006, a 32-count superseding indictment charged, among others,
                     three individuals affiliated with several related New York–based construction
                     companies with conspiracy, unlawful labor payments, mail fraud, money
                     laundering, and filing false income tax returns. These charges were in
                     connection with New York City contracts through which they allegedly
                     obtained $10 million in criminal proceeds by fraud. Two of the three are
                     charged with paying approximately $1 million in bribes to the business agents
                     of Local Unions 14 and 15 of the International Union of Operating Engineers
                     in order to allow their companies to circumvent the requirements of
                     established collective bargaining agreements. Additionally, a former
                     employee of Con Edison was charged with receiving bribes from two of the
                     defendants to allow them to overcharge Con Edison for construction work.
                     Between 1990 and 2004, one of the construction companies was awarded
                     numerous New York City contracts for public works projects. It is alleged that,
                     from 1990 through 2002, the defendants participated in a series of schemes
                     to defraud the City of New York, members of Locals 14 and 15, and various
                     public utility companies. This was accomplished through bribes, inflated
                     invoices, and the use of a “front company” in violation of New York City’s
                     Minority Business Enterprise program.
                     This case is being worked jointly with the IRS, FBI, Transportation OIG, and
                     U.S. Postal Inspection Service (USPIS).


Semiannual Report to Congress                                                                     17
April 1, 2006–September 30, 2006
 Worker Safety, Health, and                             Mine Safety and Health Administration
    Workplace Rights

Mine Safety and Health Administration
                     The Mine Safety and Health Administration (MSHA) administers the
                     provisions of the Federal Mine Safety and Health Act of 1977 and enforces
                     compliance with mandatory safety and health standards as a means to
                     eliminate fatal accidents, reduce the frequency and severity of nonfatal
                     accidents, minimize health hazards, and promote improved safety and health
                     conditions in the nation’s mines.

        Coal Mine Hazardous Condition Complaint Process
        Should Be Strengthened
                     The OIG conducted a performance audit of the hazardous condition
                     complaint process managed by the Mine Safety and Health Administration’s
                     (MSHA) Office of Coal Mine Safety and Health (CMS&H). The hazardous
                     condition complaint process is the mechanism in place to satisfy statutory
                     requirements for immediate mine inspections in response to certain alleged
                     hazards. It is critically important that the process work effectively to give
                     miners and their representatives a voice and a means to ensure appropriate
                     and prompt action is taken to remove hazardous conditions from the nation’s
                     coal mines.
                     We found that CMS&H had made efforts to improve the hazardous condition
                     complaint process. For example, CMS&H had significantly expanded the
                     Mine Act’s definition of a “complaint” that required its action. In addition,
                     CMS&H also investigated verbal complaints, unsigned or anonymous
                     complaints, and complaints originating from someone other than the miner or
                     miner’s representative. However, also among our findings were that
                     improvements are needed to ensure: improved management of the contractor
                     that receives Headquarters complaints; timely evaluation and inspection of
                     complaints; and complete management reporting on hazard complaints.
                     We found deficiencies in MSHA’s process for receiving and documenting
                     complaints that were routed to MSHA through a contractor-run answering
                     service. Since October 2005, a contractor has received $4,000 annually to
                     operate MSHA’s Code-A-Phone call center. Contractor personnel answered
                     calls using a script provided by MSHA, transcribed complainants’ responses
                     verbatim, and electronically transmitted complaint transcripts to appropriate
                     MSHA personnel. Our audit found that the scripts contained deficiencies
                     concerning complainant confidentiality and disclosure of CMS&H’s time
                     frames for responding to complaints. For example, the call scripts did not
                     instruct the contractor to inform callers that they could remain anonymous,
                     notify callers that calls received after business hours would not be addressed
                     by CMS&H until the next business day, nor that hazardous complaints could
                     be made directly to the districts. Further, several MSHA district offices and
                     Union officials expressed concern about the contractor’s lack of mining
                     knowledge, which was not a requirement of the contract. Any actual or
                     perceived deficiencies in initiating hazardous condition complaints may have
                     diminished the effectiveness of the Code-A-Phone as a mechanism to file
                     complaints because individuals may be discouraged from using the process.


Semiannual Report to Congress                                                                   18
April 1, 2006–September 30, 2006
 Worker Safety, Health, and                              Mine Safety and Health Administration
    Workplace Rights

                     With respect to the timely evaluation and inspection of hazardous condition
                     complaints, our audit found that a significant number of complaints--we
                     estimated nearly one third of complaints filed with MSHA headquarters and
                     15 percent of those filed with the districts--took two or more days before an
                     inspection was initiated. These delays may have subjected miners to
                     prolonged hazardous conditions.
                     Finally, we found MSHA management reports of hazardous complaints were
                     significantly understated. CMS&H management relied on reports that were
                     based on hazardous condition complaints filed solely with MSHA
                     headquarters, about one-third of the total complaints. The reports did not
                     include complaints filed directly with the districts. In addition, information
                     reported to the public on the number of coal mine hazardous condition
                     complaints received in CY 2004 was significantly understated. The
                     incomplete reporting may have impacted CMS&H oversight and enforcement
                     decisions and public perception of CMS&H enforcement responsibilities.
                     During our audit, CMS&H initiated action to monitor the quality of services
                     provided by the contractor receiving complaints filed through MSHA
                     headquarters, track the timeliness of hazardous condition complaint
                     evaluations and inspections, and use the MSHA Standardized Information
                     System to record, track, and report headquarters- and district-generated
                     hazardous condition complaints. MSHA initiated or planned corrective action
                     to address our recommendations, except that MSHA did not agree with our
                     recommendations to quantify an expectation for timeliness in specific terms
                     (e.g., number of hours) for evaluating complaints and for beginning
                     inspections of “imminent danger” allegations. MSHA stated that it deploys
                     resources “as soon as possible,” which is the requirement contained in the
                     Mine Act. While we do not advocate meeting standards of timeliness at the
                     expense of appropriately addressing safety concerns, we are concerned with
                     leaving the statutory language of “as soon as possible” undefined. We believe
                     that agency–established goals and measures are needed in this area to
                     protect the health and safety of miners – the primary objective of the Federal
                     Mine Safety and Health Act of 1997.

        MSHA Coal Mine Safety and Health Accountability
        Program Needs Improvement
                     The Accountability Program was established to evaluate the quality of MSHA
                     enforcement activities through peer reviews of District activities, and to
                     provide reasonable assurance that policies and procedures are being
                     complied with consistently throughout MSHA. In the course of conducting an
                     ongoing performance audit of MSHA’s Accountability Program within
                     CMS&H, we identified five potential issues for which recommended
                     improvements would aid CMS&H in the Headquarters (HQ) Reviews of
                     Districts it will be initiating in the coming months.
                     The HQ Reviews of Districts, conducted biennially for each District office, are
                     comprehensive and include in-depth reviews of the enforcement activities for
                     a selected operation(s). District Peer Reviews, conducted at selected field
                     offices annually, focus on MSHA’s enforcement systems to identify



Semiannual Report to Congress                                                                    19
April 1, 2006–September 30, 2006
 Worker Safety, Health, and                                 Mine Safety and Health Administration
    Workplace Rights

                     deficiencies in the level and consistency of enforcement, concentrating on
                     those activities that most directly affect the safety and health of miners.
                     Results of the District Peer Reviews are used by HQ personnel to ensure
                     enforcement consistency nationwide, as well as to identify systemic
                     weaknesses and trends, and potential best practices within MSHA’s
                     inspection programs.
                     We found that, as currently defined, the Accountability Program does not
                     ensure that either the District Peer Reviews or the HQ Reviews of Districts:
                             •     Include a standard process for selecting mines to be
                                   reviewed: In HQ Reviews of Districts, only underground coal
                                   mines are considered for review, excluding surface mines and
                                   facilities from possible selection. This limits the value of the
                                   reviews by preventing procedural deficiencies or improprieties
                                   related to the oversight of surface mines and facilities from being
                                   detected and corrected. According to MSHA, some Districts have
                                   included surface operations and facilities in their District Peer
                                   reviews. In addition, in District Peer Reviews, varying criteria are
                                   used to select a mine(s) for review. This creates a risk that an
                                   individual could manipulate the selection to reduce the effort
                                   required to complete the review or to avoid detection of
                                   deficiencies or improprieties.

                             •     Require a review team member to visit those mines selected
                                   during the reviews: A review solely based on records increases
                                   the risk that errors (unintentional) or misrepresentations
                                   (intentional) in the documentation would not be detected. A
                                   physical tour of selected portions of the mine would provide a
                                   basis of comparison against events and conditions depicted in the
                                   mine’s plans and inspection records. According to MSHA,
                                   Headquarters and some District Peer Reviews have included mine
                                   visits as part of their review process.

                             •     Require a review team member to interview appropriate
                                   district and/or field office personnel during the reviews:
                                   Omitting interviews of individuals involved in or knowledgeable of
                                   district or field office activities (e.g., MSHA personnel, mine
                                   operators, union officials) limits the scope of information used to
                                   assess those offices’ operations. This increases the risk that
                                   operational deficiencies will not be detected. Interviews of
                                   appropriate individuals during reviews would provide an
                                   opportunity to corroborate and expand on information about
                                   operational issues identified through other review sources. While
                                   MSHA acknowledged they do not interview all of the parties cited
                                   by the OIG, they stated that interviews of District Management
                                   personnel are conducted.

                             •     Include a centralized system for HQ to record and track the
                                   deficiencies and corrective actions identified during reviews:
                                   The Summary Accountability Reports submitted by District


Semiannual Report to Congress                                                                       20
April 1, 2006–September 30, 2006
 Worker Safety, Health, and                                 Mine Safety and Health Administration
    Workplace Rights

                                   Managers to CMS&H officials presented peer review information
                                   in a variety of formats and levels of detail, making it more difficult
                                   for CMS&H HQ officials to determine that all appropriate (a)
                                   review work was performed, (b) results were reported, and (c)
                                   corrective actions were identified. It also makes it more difficult to
                                   analyze comparable information across districts to identify trends
                                   and systemic issues. A standard format for District Peer Review
                                   reports would facilitate the ability of CMS&H officials to carry out
                                   their oversight review and analysis.
                     In addition, for District Peer reviews, there is not a standard format for review
                     reports and corrective action plans.
                     We made five recommendations based on our audit work to date to address
                     these issues that will enhance CMS&H officials’ ability to derive the most
                     benefit from their District Peer Reviews and HQ Reviews of Districts and
                     contribute to the overall mission of protecting the safety of miners. MSHA
                     generally concurred with our recommendations, stating that the
                     enhancements will not only create a more uniform and standardized
                     approach to HQ and District Peer review processes, but also assist CMS&H
                     in strengthening this very important oversight program. With regard to our
                     recommendation related to visiting mines during reviews, MSHA stated that it
                     would include visits to a percentage of mine(s) selected for District Peer
                     Reviews. We will take into consideration MSHA’s proposed action, and
                     further assess this issue, as we complete our ongoing audit work of the
                     Accountability Program. (Report 05-06-006-06-001, issued September 29,
                     2006)




Semiannual Report to Congress                                                                         21
April 1, 2006–September 30, 2006
 Worker Safety, Health, and                     Occupational Safety and Health Administration
    Workplace Rights

Occupational Safety and Health Administration
                     The mission of the Occupational Safety and Health Administration (OSHA) is
                     to ensure safe and healthful conditions for workers by enforcing the
                     standards developed under the Occupational Safety and Health Act; to assist
                     and encourage states in their efforts to ensure safe and healthful working
                     conditions; and to provide for research, information, education, and training in
                     the field of occupational safety and health. OSHA is responsible for the safety
                     and health of workers in nearly every workplace in the United States.

        Construction Company President Sentenced for Fatal
        Balcony Collapse and Manager/Engineer Sentenced
        for Falsifying Payroll Records
                     Kang Yeon Lee, president of Big Apple Construction, was sentenced on June
                     15, 2006, to 30 months’ imprisonment and two years’ supervised release for
                     his role in the death of a worker by willfully failing to comply with OSHA
                     regulations, and for committing mail fraud in a scheme to conceal his failure
                     to pay the prevailing wage to workers on a Federally funded project for the
                     U.S. Postal Service at John F. Kennedy (JFK) Airport. As part of his plea
                     agreement, Lee has agreed to pay over $2 million in compensation and
                     penalties. Lee has settled approximately $350,000 of the restitution and was
                     ordered to pay an additional $300,000 prior to his surrender on September 5,
                     2006. On August 24, 2006, Dai Ki Kim, the manager and engineer for Big
                     Apple Construction, was sentenced to one year of probation for his role in
                     submitting certified payroll records that knowingly contained false
                     representations.
                     This investigation arose out of the May 2004 collapse of a balcony under
                     construction that killed a worker and seriously injured two others. An OSHA
                     investigation revealed that Big Apple Construction failed to provide fall-
                     protection equipment to its workers. Lee had been cited by OSHA in 2001 for
                     failing to provide the equipment. Further investigation revealed that Big Apple
                     Construction did not pay its workers the required prevailing wage at the JFK
                     Airport project. Lee directed Kim to certify falsified payroll records to show
                     that Big Apple workers were paid the required wage. Big Apple Construction
                     had also signed a collective bargaining agreement with the Mason Tenders
                     Local 79, to which Big Apple had failed to contribute any funds on behalf of its
                     workers. This case was worked jointly with OSHA, EBSA, the Wage and Hour
                     Division, the U.S. Postal OIG, and the NYC Department of Buildings. U.S. v.
                     Kang Yeon Lee (E.D. New York) and U.S. v. Dai Ki Kim (E.D. New York)




Semiannual Report to Congress                                                                     22
April 1, 2006–September 30, 2006
       Employment and                                                                      Job Corps
      Training Programs

Job Corps
                     Job Corps was established by Congress in 1964 and is recognized today as
                     the nation’s largest and most comprehensive residential education and job-
                     training program for at-risk youths ages 16 through 24. About 60,000 students
                     participate annually in the program. The program is primarily carried out at
                     residential facilities that provide intensive education, vocational training, youth
                     development, counseling, job placement, and follow-up services. For fiscal
                     year (FY) 2006, more than $1.5 billion was appropriated for Job Corps. As
                     part of a requirement contained in the FY 2006 Appropriations Act, Job Corps
                     was transferred out of the Employment and Training Administration (ETA) and
                     into the Office of the Secretary of Labor.

        Performance Audit of Job Corps Center Operating
        Costs Identifies Reporting Deficiencies
                     We conducted a performance audit of Job Corps Center (JCC) operating
                     costs at 12 contractor-operated centers for the period October 2004 through
                     March 2005.
                     We found that, overall, Job Corps contractors complied with laws,
                     regulations, and Job Corps policies and procedures relating to center
                     operating costs. However, the OIG identified three areas of noncompliance
                     that could result in overbilling to the government and an increased possibility
                     of fraud through the manipulation of accounting records. Two areas were
                     related to specific contractor operations: a lack of adequate internal controls
                     over program expenditures at the Earle C. Clements JCC; and improper
                     recording and reporting of indirect administrative costs at the Jacksonville
                     JCC. A third area of noncompliance was a crosscutting issue whereby journal
                     entries to record costs were not properly approved, adequately supported, or
                     correctly recorded at five JCCs.
                     We made six recommendations to the Office of Job Corps to require
                     corrective actions be taken by the individual center contractors. We also
                     made a recommendation to require each center to have written policies and
                     procedures for the preparation, documentation, recording, and approval of all
                     journal entries made to the centers’ books of account. This latter issue was
                     also found to exist at other JCCs in the prior year audit. In its response, Job
                     Corps agreed to implement the report recommendations. (Report 03-06-005-
                     01-370, issued September 29, 2006)

        Audit of Job Corps Student Pay Allotment and
        Management Information System
                     We conducted a performance audit of Job Corps Student Pay Allotment and
                     Management Information System (SPAMIS) activity and results for the
                     two-year period ended September 30, 2005. Job Corps uses SPAMIS to
                     process payments to the students. Over 90 percent of the payments are for
                     Living Allowances to students during enrollment at JCCs and Transition



Semiannual Report to Congress                                                                        23
April 1, 2006–September 30, 2006
       Employment and                                                                    Job Corps
      Training Programs

                     Allowance payments given to students when they complete or terminate the
                     Job Corps program. The Job Corps Data Center (JCDC) in Austin, Texas,
                     which is operated by a contractor, RS Information Systems, Inc., is
                     responsible for managing SPAMIS.
                     The OIG found that, overall, controls over SPAMIS financial operations were
                     adequate. However, we identified several weaknesses requiring management
                     attention:
                             •     Job Corps management did not fully utilize monthly SPAMIS
                                   reports;
                             •     accounting and financial documents did not have the proper
                                   review or authorization;
                             •     the contractor incorrectly accounted for bank charges;
                             •     the contractor’s accountant was responsible for payroll tax review
                                   and was also listed as the IRS third-party designee, a
                                   segregation-of-duties concern;
                             •     Job Corps Program Payroll Reports contained negative Federal
                                   income tax withholding for students paid; and
                             •     contractor-established policies and procedures were incomplete
                                   or, at times, disregarded.
                     Also, while Job Corps has been effective in reducing the balance of
                     unclaimed Living and Transition Allowance checks by $1.7 million, to $7.9
                     million, it has not determined whether state escheat laws apply to these
                     unclaimed checks. Job Corps could owe the states the value of the
                     unclaimed checks, as determined by each state’s escheat laws.
                     We made six recommendations to the Office of Job Corps to develop policies
                     and procedures to address our findings. Job Corps agreed with the
                     recommendations and has either planned or initiated corrective actions.
                     (Report 03-06-003-01-370, issued September 29, 2006)

        American Business Corporation Georgia Overstated
        Job Corps Placement Outcomes
                     The OIG conducted a performance audit of Job Corps employment and
                     educational placements reported by American Business Corporation (ABC)
                     Georgia. This was due to allegations of fraud and/or abuse related to the
                     reporting of placement outcomes by ABC Georgia and Federal personnel
                     who are responsible for oversight of the program. The placement data
                     reported on students who have completed the Job Corps program is used by
                     the Department in its annual reporting to Congress.
                     We found that ABC Georgia’s reported placement outcomes for program
                     years 2003 and 2004 were not reliable, and that it had claimed a significant
                     number of invalid placements. One of the reasons that this occurred was
                     because the procedures the Job Corps Atlanta Regional Office (ARO) used
                     to monitor ABC Georgia placement activities were not effective. In addition,
                     ARO’s placement verification processes had systemic weaknesses, and,
                     despite concerns noted in two of its monitoring reports, ARO did not take



Semiannual Report to Congress                                                                     24
April 1, 2006–September 30, 2006
       Employment and                                                                      Job Corps
      Training Programs

                     formal corrective actions. Further, ARO did not comply with its reporting
                     requirement to report potential fraud incidents to the OIG through the
                     Department’s Incident Reporting System.
                     Job Corps has already begun taking action to improve performance data
                     reliability. It has convened a national performance data reliability work group
                     to make recommendations for processes to ensure system-wide integrity of
                     performance data.
                     OIG recommendations included that Job Corps:
                             •     implement the recommendations of the national work group
                                   relative to the monitoring and follow-up of Career Transitional
                                   Service providers’ placement activities in order to correct
                                   weaknesses and breakdowns in the region’s application of its
                                   monitoring policies and procedures;
                             •     prepare a corrective action plan for all future program monitoring
                                   reports;
                             •     ensure training of all applicable ARO personnel regarding their
                                   responsibility to report potential fraud incidents to the OIG through
                                   the Department’s Incident Reporting System;
                             •     assess almost $215,000 in liquidated damages resulting from
                                   ABC Georgia’s identified invalid placements; and
                             •     determine whether bonus payments made to center operators
                                   based on the identified invalid placements had a material financial
                                   impact and, if so, work with the Solicitor’s office to determine
                                   overpayments and those liable for repayment.
                     In its response to our draft report, ABC Georgia objected to the use of UI
                     wage information in determining the validity of placements, and disagreed
                     with our conclusions. The Job Corps ARO concurred with our findings.
                     (Report 09-06-004-01-370, issued September 29, 2006)

        OIG Identified Over $300,000 in Questioned Costs at
        Los Angeles YWCA
                     We conducted an audit of the Young Women’s Christian Association of
                     Greater Los Angeles (YWCA), which operates the Los Angeles JCC, based
                     on allegations of improper expenditures that were made against the YWCA.
                     We found that one of six allegations was substantiated, while a second
                     allegation could be neither substantiated nor disproved due to a lack of
                     documentation. The four remaining allegations were unsubstantiated.
                     Regarding the substantiated allegation, we questioned $300,870, which was
                     the estimated cost that the YWCA improperly charged Job Corps for
                     developing two proposals for Job Corps contracts. Such costs are
                     unallowable. A lack of detailed trip records prevented us from determining
                     whether the YWCA Chief Executive Officers (CEO) used a government
                     vehicle for personal use. However, we did determine that the Los Angeles
                     JCC should have billed the YWCA for $3,000 in annual vehicle insurance
                     costs related to the CEO’s assigned government vehicle. Instead, JCC bore



Semiannual Report to Congress                                                                        25
April 1, 2006–September 30, 2006
       Employment and                                                                   Job Corps
      Training Programs

                     the cost. The OIG recommended that Job Corps recover the above $303,870.
                     We also recommended that Job Corps direct the Los Angeles JCC and the
                     YWCA to comply with applicable regulations and provisions regarding the use
                     of U.S. Government vehicles. Job Corps agreed with our recommendations
                     and stated that the Regional Office would closely monitor the YWCA’s
                     compliance. (Report 09-06-005-01-370, issued September 29, 2006)

        Improvements Are Needed in the Boston Regional
        Office’s Procurement of JCC Operators and Service
        Providers
                     The OIG performed an audit of allegations that Boston Regional Office Job
                     Corps officials engaged in five abusive procurement practices that impacted
                     the awarding of a contract to operate three Puerto Rico Job Corps centers
                     and other services for Puerto Rico and the Virgin Islands. As part of our work
                     in determining whether the allegations were valid, we examined whether any
                     former DOL Job Corps employees were working for the incumbent contractor,
                     and whether the procurement process and subsequent award of the contract
                     complied with applicable procurement laws and regulations.
                     JCC operators, outreach and admissions providers, and career transition
                     service providers are required to be selected, in almost all cases, based on a
                     full and open competitive process. The procurement process for those
                     services has been administered by Job Corps regional offices using the
                     procurement requirements found in the Federal Acquisition Regulation (FAR)
                     and the DOL Acquisition Regulations (DOLAR). Job Corps applies the
                     requirements of FAR and DOLAR through the use of the Job Corps
                     Procurement Compendium (Compendium), which is designed to assist
                     regional office staff in properly documenting required procurement decisions
                     and activities by providing examples and models that can be customized for
                     each procurement.
                     While the OIG did not find any of the allegations to be substantiated, we
                     made two recommendations to Job Corps to improve the office’s
                     procurement procedures: update the Compendium to include the FAR
                     requirement that the notice to offerors not meeting the competitive range be
                     provided “promptly”; and ensure that the Regional Director of the Boston
                     Regional Office of Job Corps issues written guidelines for the office to comply
                     with the FAR requirement to promptly provide an offeror whose score did not
                     meet the competitive range the basis for why the offeror was excluded from
                     further consideration for a contract. Job Corps concurred with the first
                     recommendation. Because contracting authority was being transferred from
                     the Job Corps Regional Directors to Office of the Assistant Secretary for
                     Administration and Management (OASAM) contracting officers, Job Corps
                     stated that the second recommendation is no longer applicable. However, the
                     OIG considers the second recommendation applicable until we are provided
                     evidence that Regional Directors no longer have contract authority for awards
                     to Job Corps center operators, outreach and admissions providers, and
                     Career Transition Service providers. Subsequent to issuance of the final
                     report, OASAM stated that it concurred with the report’s recommendation and



Semiannual Report to Congress                                                                    26
April 1, 2006–September 30, 2006
       Employment and                                                                  Job Corps
      Training Programs

                     is in the process of updating the guidance. (Report 26-06-002-01-370, issued
                     September 29, 2006)

        National Park Service Has Not Assured the Safety and
        Health of Students and Staff at the Oconaluftee JCC
                     The Oconaluftee JCC is one of three centers operated by the National Park
                     Service (NPS). The Department provides funding to NPS to operate the JCCs
                     and, through a 1989 Interagency Agreement between NPS and DOL, NPS
                     agreed to comply with Job Corps’ rules, regulations, and guidelines. While
                     conducting a performance audit of the Oconaluftee JCC, we found three
                     safety conditions that warranted immediate corrective actions by the Office of
                     Job Corps: fire detection and alarm systems were not operable in every
                     building, food handling and storage areas had deteriorated in the dining hall
                     due to long-term roof damage, and the NPS ranger firing range was located
                     too close to the Center’s student and staff population.
                     The OIG made three recommendations, which Job Corps agreed to address.
                     Job Corps stated that funding has been provided to NPS to correct the
                     recommendations relating to fire detection and alarm systems and food
                     safety issues. Regarding the third recommendation, Job Corps reported that
                     qualified National Office safety staff had performed an inspection of the
                     shooting range and determined that it did not pose a risk to student health.
                     (Alert Report 26-06-001-01-370, issued July 7, 2006)




Semiannual Report to Congress                                                                   27
April 1, 2006–September 30, 2006
       Employment and                                                    Workforce Investment Act
      Training Programs

Workforce Investment Act
                     The goal of the Workforce Investment Act of 1998 (WIA) is to increase
                     employment, retention, and earnings of participants and, in doing so, improve
                     the quality of the workforce to sustain economic growth, enhance productivity
                     and competitiveness, and reduce welfare dependency. Authorization for WIA
                     ended in 2003, and its reauthorization is pending before Congress. Included
                     among the programs established by WIA are National Emergency Grants
                     (NEGs) for workers who become unemployed as a result of natural or other
                     disasters. WIA also establishes pilot, multiservice, research, and multistate
                     projects under which Congress has funded multiple “earmark” grants.

        Questionable Eligibility of College Students in
        Mississippi’s National Emergency Grant Training
        Program
                     The State of Mississippi was awarded a National Emergency Grant in
                     response to Hurricane Katrina. The NEG’s initial purpose was to create
                     temporary jobs to assist in disaster cleanup and restoration. It was later
                     modified to authorize Mississippi to provide the training opportunities
                     necessary to lead to permanent employment.
                     While conducting an ongoing performance audit of participant eligibility in the
                     Mississippi NEG, we identified an issue that warranted immediate corrective
                     action by ETA. The OIG specifically found that 39 of a sample of 125 NEG
                     participants, or 31 percent, from one Local Workforce Investment Area were
                     already attending college when they entered into an Individual Training
                     Account (ITA) funded by the NEG. Further review at five Workforce
                     Investment Network (WIN) Job Centers showed that the centers had entered
                     into ITAs totaling $1.8 million to cover the educational expenses of 533
                     students who were already attending college at the time that they were
                     enrolled under the NEG. This amount accounted for about 60 percent of the
                     total $3.1 million in ITAs awarded by these WIN Job Centers. Also, the State
                     accepted eligibility self-certifications performed by the students, even though
                     college transcripts/schedules in the participant files included college
                     enrollment dates that were both prior to and after Hurricane Katrina.
                     Mississippi had no system in place to determine whether information provided
                     by participants was factual, or to terminate assistance in the event that
                     participants were found to be ineligible. In addition, WIA requires that
                     participants receive core and intensive services before accessing training. If
                     unable to obtain and retain employment through such services, then they are
                     eligible for training services. We found that core and intensive services, and
                     training placement, for college students were all performed on the same day.
                     This would not have afforded the students sufficient time to seek employment
                     prior to enrolling in NEG training.
                     We recommended that ETA: work with Mississippi to ensure that NEG
                     participants meet the eligibility criteria for training; issue policy guidance that
                     will require adequate documentation of eligibility for those college students



Semiannual Report to Congress                                                                        28
April 1, 2006–September 30, 2006
       Employment and                                                    Workforce Investment Act
      Training Programs

                     enrolled under the NEG grants based on self-certification; and require
                     Mississippi to review all NEG participant files related to college educational
                     assistance to ensure that participants are eligible to receive NEG services.
                     ETA’s comments indicated that it interpreted our first recommendation to
                     mean that Mississippi should cease enrolling college students. ETA further
                     contended that WIA regulations do not impose a “work test” requirement, and
                     Federal regulations do not stipulate a minimum time period for intensive
                     services prior to determining participants’ need for training services.
                     However, based on WIA’s requirements, the OIG’s position is that students
                     should not be enrolled without first determining that they have been unable to
                     obtain or retain employment, and without assessing the students’ need for
                     training services. With regard to the remaining two recommendations, ETA
                     stated it will follow up in writing with the grantee to ensure that it has a system
                     in place to comply with the grant requirements, and that appropriate reviews
                     have been conducted. (Management Letter 04-06-008-03-390, issued
                     September 28, 2006)

        Nearly One-Third of Grant Costs Are Questioned in
        New York Grant
                     The OIG conducted a performance audit of an earmark grant awarded to
                     Westchester Putnam Counties’ Consortium for Worker Education and
                     Training, Inc. (WP-CWE), a not-for-profit corporation whose purpose is to
                     provide outreach and pre-apprenticeship training for the construction industry.
                     The grantee expended the entire $500,000 awarded under the grant. The
                     grant required WP-CWE to provide training to 60 youth and 45 adult
                     participants who were residents of New York’s Westchester and Putnam
                     Counties.
                     We questioned a total of $163,651 in grant costs: $127,357 because claimed
                     costs were not reasonable, allowable, and allocable to the grant; and $36,294
                     because 28 percent of reported adult participants were not eligible. The
                     questioned costs comprise $91,939 in administrative costs that exceeded
                     grant limits, $24,667 in legal services costs that were unallowable or not
                     adequately documented, and $10,751 in common costs that were
                     overallocated to the grant. WP-CWE reported that it met grant performance
                     goals. However, we found that 13 adult participants did not meet specific
                     eligibility requirements, and WP-CWE trained only 34 eligible adult
                     participants. Therefore, we determined that the corporation did not achieve
                     the grant’s goals for adult training.
                     In WP-CWE’s response to the draft, it agreed with $5,910 of questioned costs
                     for unallowable legal services, but did not agree with the findings relating to
                     excessive administrative costs or ineligible participants. Further, WP-CWE
                     did not address our findings relating to lack of documentation for legal
                     services costs, overallocated common costs, or not achieving grant goals. No
                     additional information was provided that materially affected the report.
                     (Report 02-06-204-03-390, issued September 29, 2006)




Semiannual Report to Congress                                                                        29
April 1, 2006–September 30, 2006
       Employment and                                                Workforce Investment Act
      Training Programs

        Significant Audit Resolution – Florida Repays
        $11.4 Million Based on 1998 Audit
                     Based on a 1998 OIG audit, in April 2006 the U.S. Court of Appeals for the
                     Eleventh Circuit upheld the February 2005 findings of the Department’s
                     Administrative Review Board (ARB), which held that the State of Florida had
                     misspent $11.4 million in Federal training funds and had to repay the money.
                     The audit questioned this amount after it found that Florida had used Job
                     Training Partnership Act funds to supplant adult education costs that should
                     have been borne by the State. The Court rejected Florida’s assertion that the
                     ARB’s ruling misconstrued the statutory language, was not supported by
                     substantial evidence, and deprived the State of due process. In July 2006,
                     Florida repaid the full amount owed, including statutory interest, without
                     further proceedings. (Report 04-98-005-03-340, issued September 25, 1998)

        Grant Money Embezzled by Training Institute
                     Victor Mungai Kamunge, the owner of Merit Technical Institute, pled guilty on
                     April 10, 2006, to charges of embezzling approximately $392,000 from
                     separate grant programs run by DOL and the Department of Education
                     (DOE). From October 2001 to October 2003, Kamunge submitted or had
                     others submit false student transcripts and attendance records on behalf of
                     unsuspecting students, so that his company would qualify for DOL WIA
                     funds. He then knowingly applied for and received DOE funding for programs
                     that were ineligible. Kamunge embezzled approximately $182,700 in WIA
                     funds and approximately $209,700 in funds from the DOE’s Federal Family
                     Education Loan Program. This was a joint investigation with the DOE OIG.
                     U.S. v. Victor Mungai Kamunge (D. New Jersey)

        Accountant Embezzles WIA Funds from Navajo
        Department of Workforce Development
                     Elyse Hongeva, a former Navajo Department of Workforce Development
                     (NDWD) accountant, pled guilty on June 19, 2006, to charges of embezzling
                     approximately $191,000 in WIA funds by depositing WIA participant “refund
                     checks” from various vocational schools into a personal bank account that
                     she controlled.
                     Rather than instructing NDWD employees to return checks comprising
                     unspent balances of funds intended for WIA students to the NDWD office,
                     Hongeva redirected the checks to a post office box in her name. Hongeva
                     withdrew money out of the account and used it to gamble, attend sporting
                     events, and pay for her son’s tuition at a private college. This was a joint
                     investigation with the FBI. U.S. v. Elyse Hongeva (D. Arizona)




Semiannual Report to Congress                                                                  30
April 1, 2006–September 30, 2006
       Employment and                                                            Welfare-to-Work
      Training Programs

Welfare-to-Work
                     DOL provided Welfare-to-Work (WtW) grants to create job opportunities for
                     the hardest-to-employ welfare recipients and other eligible persons. The
                     grants funded job placement services, transitional employment, and other
                     support services recipients needed to make the successful progression into
                     long-term unsubsidized employment. The program was authorized only for
                     FYs 1998 and 1999, although the grants could be in operation for as long as
                     five years.

        Over $1.6 Million Questioned in NY WtW Grant
                     The OIG conducted a performance audit of an approximately $5 million WtW
                     competitive grant awarded to The Doe Fund, Inc., a nonprofit community-
                     based organization. Initially the grant was to assist long-term female welfare
                     recipients facing multiple significant barriers to employment in becoming self-
                     sufficient. However, it was subsequently modified to include all WtW-eligible
                     females. The grant’s performance goals were to serve 694 participants and
                     place 381 in unsubsidized employment.
                     We questioned approximately $1.6 million in costs related to unallowable
                     fundraising and improperly allocated and unsupported costs. We also
                     determined that The Doe Fund, Inc., drew down almost $17,000 in excess of
                     claimed costs, and lacked budget modification approval to exceed line item
                     costs. We found that participants were eligible and that The Doe Fund, Inc.,
                     measured and reported enrollment and placement outcomes; however, it did
                     not meet enrollment and performance goals and did not measure and report
                     average wage at placement or average wage one year after placement, as
                     required by the grant. In addition to recommending the questioned costs and
                     excess drawdowns be recovered, the OIG also recommended that ETA
                     ensure The Doe Fund, Inc., does not use Federal funds on existing or future
                     grants for unallowable fundraising activities, and establishes policies and
                     procedures to ensure that costs are properly documented and allocable to
                     cost objectives. The Doe Fund, Inc. did not respond to the draft report.
                     (Report 02-06-206-03-386, issued September 29, 2006)

        Missouri Grantee’s $4.1 Million Claim for
        Reimbursements Questioned
                     The OIG performed an audit of DOL grants to St. Charles County, Missouri,
                     because of allegations that its Department of Workforce Development (DWD)
                     overcharged the grants. St. Charles County is a grant subrecipient of
                     workforce development funds under the WIA and WtW programs from the
                     State of Missouri. Responsibility for administering these grants was delegated
                     to DWD, which received approximately $5.4 million in WIA and WtW funds
                     during our audit period of July 1, 2000, through July 31, 2004. Responsibility
                     for maintaining the financial records of the entire county, including DWD, was
                     assigned to the County’s Department of Finance (DOF).




Semiannual Report to Congress                                                                    31
April 1, 2006–September 30, 2006
       Employment and                                                            Welfare-to-Work
      Training Programs

                     We could not conclude on the merits of the allegations because of a lack of
                     critical documentation showing how costs were allocated to the DOL grants.
                     For this reason, we questioned all WIA and WtW grant costs, totaling over
                     $4.1 million. DWD and DOF could not account for DOL grant funds and,
                     therefore, could not support their claim for reimbursement to Missouri. We
                     recommended that ETA direct:
                             •     Missouri to submit alternative documentation to support the
                                   claimed cost allocations and, based on ETA’s determination,
                                   recover unallowable or unsupportable costs;
                             •     Missouri to ensure that DWD allocates costs to DOL programs in
                                   accordance with the relative benefits received; and
                             •     DWD and DOF to maintain adequate records to account for all
                                   expenditures of DOL program funds.
                     In comments to the draft report, Missouri and County officials stated that they
                     intended to submit alternative documentation as evidence of the clients
                     served and the expenditures made on behalf of these programs. Until
                     documentation is provided and accepted by ETA, the $4.1 million will remain
                     as questioned costs. The response did not address Missouri’s actions
                     regarding the remaining two recommendations. (Report 05-06-001-03-390,
                     issued September 28, 2006)




Semiannual Report to Congress                                                                    32
April 1, 2006–September 30, 2006
       Employment and                                                Foreign Labor Certification
      Training Programs

Foreign Labor Certification
                     The Department’s foreign labor certification programs provide U.S. employers
                     access to foreign labor. The Permanent Foreign Labor Certification (FLC)
                     program allows an employer to hire a foreign worker to work permanently in
                     the United States. Administration of the program is the responsibility of three
                     Federal departments: Labor, Homeland Security, and State. Prior OIG audits
                     have identified vulnerabilities, and our investigations, some of which have
                     been initiated based on referrals from ETA, continue to identify fraud against
                     these programs.

        Luxury Cars and Over $5.7 Million Are Forfeited in
        Immigration Fraud Scheme
                     Narendra Mandalapa, the owner of Cybersoftec, pled guilty on June 19,
                     2006, to charges of sponsoring himself for a green card using an alternate
                     identity and of labor certification substitution. He faces 37 to 46 months’
                     incarceration.
                     The investigation resulted from a July 2005 DOL OIG Hotline complaint
                     regarding possible criminal conduct by the New Jersey–based company. It
                     was discovered that Mandalapa used counterfeit ETA 750 labor certification
                     forms to apply for at least 250 green cards via the FLC program and made
                     profits of at least $2.1 million from the sale of the counterfeit labor
                     documents. Cybersoftec charged applicants between $4,000 and $22,500 to
                     substitute their names onto previously approved labor certifications, which the
                     applicants believed had not been used previously. As part of his guilty plea,
                     Mandalapa consented to the forfeiture of over $5.7 million and two luxury
                     automobiles. He further agreed to pay full restitution to the approximately 250
                     applicants in this case. This was a joint investigation with the Department of
                     Homeland Security (DHS), Immigration and Customs Enforcement (ICE),
                     U.S. Citizenship and Immigration Services (USCIS), and the DOL Wage and
                     Hour Division. U.S. v. Narendra V. Mandalapa a/k/a Ramesh Dashrth (D.
                     New Jersey)

        Employment Contracting Agency Conspires with Law
        Firm in Visa Fraud Scheme
                     Philip Abramowitz, a former immigration attorney, pled guilty to conspiracy
                     and visa fraud charges on August 14, 2006, for his role in a scheme to
                     fraudulently obtain immigration visas. The immigration law firm of Korenberg,
                     Abramowitz, and Feldun assisted over 1,000 aliens in obtaining immigration
                     visas through a conspiratorial partnership with Employmasters International,
                     an employment contracting agency. Many of the aliens paid up to $20,000 for
                     the visas, some of which were H-1B visas.
                     The owners of Employmasters each pled guilty to charges of visa fraud and
                     conspiracy to commit visa fraud in February and May of 2005. Two other
                     individuals pled guilty to the same charges in 2005 and a third to charges of



Semiannual Report to Congress                                                                    33
April 1, 2006–September 30, 2006
       Employment and                                                Foreign Labor Certification
      Training Programs

                     visa fraud in 2003. This was a joint investigation with ICE, USPIS, and the
                     California Employment Development Department (EDD). U.S. v. Philip
                     Abramowitz (C.D. California).

        Law License Forfeited in Labor Certification Fraud
                     Christopher C. Yum, a former immigration attorney, pled guilty on August 14,
                     2006, to charges of making false statements in order to obtain foreign labor
                     certifications. Yum and co-conspirator Michael “Gang” Huh submitted
                     fraudulent labor certifications and other supporting documents on behalf of
                     aliens seeking entry into the United States. Yum arranged with the aliens and
                     Huh, who fraudulently acted as a sponsoring employer, to provide fictitious
                     pay stubs with the applications in order to falsely demonstrate to DHS that
                     the aliens were working. Yum paid Huh $7,500 per alien he agreed to
                     sponsor. Yum charged the aliens in excess of $25,000 each for his services.
                     As a result of the investigation, Yum forfeited his law license and closed his
                     law firm, which he had owned since 1990. This was a joint investigation with
                     the Department of State OIG, DHS, and the FBI. U.S. v. Christopher C. Yum
                     (E.D. Virginia)

        Attorney and Wife Charged in Immigration Case
                     A 16-count indictment was unsealed on July 21, 2006, after the arrests of a
                     Kansas husband and wife who are charged with submitting fraudulent FLC
                     application forms to DOL and the USCIS. The husband, an attorney who was
                     disbarred from practicing law in 2004, and his wife, who also in 2004
                     improperly held herself out as an attorney, were indicted by a Federal grand
                     jury in Kansas in January 2006.
                     It is alleged that in 2001 and 2003, through their scheme, they conspired to
                     violate both immigration and labor laws by defrauding the FLC program and
                     violating the Immigration and Nationality Act through the filing of forms for
                     employers purportedly petitioning for foreign workers. The two are suspected
                     of submitting applications containing forged signatures to the Kansas
                     Department of Human Resources and the Missouri Department of Labor on
                     behalf of various Kansas and Missouri employers. Some employers had no
                     knowledge of the law firm, others had no knowledge of the FLC program, and
                     one person had been dead for two months at the time the application was
                     allegedly signed. This case is being worked jointly with ICE.

        Attorney Pleads Guilty to Immigration Visa Fraud
        Charges
                     Stephen Timmer, a former immigration attorney, pled guilty on July 19, 2006,
                     to wire fraud and immigration visa fraud charges. Timmer was hired by
                     companies to lawfully file I-129 “Petition for Nonimmigrant Worker” forms on
                     behalf of foreign nationals whom the companies wanted to employ or
                     continue to employ in the United States. From 1999 to 2002, Timmer did not
                     file any documentation with DOL in an effort to gain work visas for the foreign
                     national employees/employment candidates. However, Timmer billed the



Semiannual Report to Congress                                                                    34
April 1, 2006–September 30, 2006
       Employment and                                                Foreign Labor Certification
      Training Programs

                     companies for legal fees for immigration work that had not been performed.
                     He created documents that falsely represented that the Immigration and
                     Naturalization Service (INS) had approved the I-129 applications and
                     forwarded these false, fraudulent, and counterfeit documents to the
                     companies. The plea agreement requires Timmer to make restitution in the
                     amount of $45,614. This investigation was worked jointly with ICE. U.S. v.
                     Stephen Timmer (N.D. Illinois)

        Bar Owner Pleads Guilty to Charges of Human
        Trafficking
                     Luisa Medrano, a New Jersey bar owner, pled guilty on September 12, 2006,
                     to charges of harboring and tax evasion in connection with a human
                     smuggling and forced labor ring that brought young Honduran women into the
                     United States and required them to work in her bars to offset smuggling debts
                     that ranged from $10,000 to $20,000. From October 2004 until January 2005,
                     Medrano harbored and employed young Honduran females, including at least
                     four juveniles who obtained false identification.
                     As part of the plea agreement, Medrano agreed to make full restitution for all
                     losses to victims of her offense. She further agreed to forfeit two parcels of
                     real property she owns, valued in excess of $500,000, where illegal aliens
                     were harbored. Medrano must also pay back taxes of approximately
                     $250,000.
                     Noris Elvira Rosales Martinez, Ana Luz Rosales Martinez, and Jose Dimas
                     Magana pled guilty on August 3, 2006, to forced labor charges resulting from
                     transporting the smuggled women to one of three of Medrano’s apartments in
                     the New York/New Jersey area, where they were required to live until their
                     smuggling debts had been repaid.
                     This is a joint investigation with ICE; the Guttenberg, New Jersey, Police
                     Department; the General Prosecutor of the Republic of Honduras; and the
                     Special Investigation Police of Honduras. U.S. v. Luisa Medrano, et al.; U.S.
                     v. Noris Elvira Rosales-Martinez; U.S. v. Ana Luz Rosales-Martinez; and U.S.
                     v. Jose Dimas Magana (D. New Jersey)

        More Than 550 Undocumented Workers Brought into
        the United States by Labor Leasing Firm
                     Jaroslaw Sawczuk and Jozef Bronislaw Bogacki pled guilty on September 13,
                     2006, for their roles in a conspiracy to provide undocumented workers to
                     American companies, which had hired the defendants to provide them with
                     legally authorized foreign workers. On that same date, Pavel Preus was
                     sentenced for his role in the conspiracy. Preus had pled guilty to similar
                     charges on September 13, 2005.
                     Through this scheme, undocumented workers, who had entered the United
                     States on tourist visas, were employed illegally in the Midwest and
                     Southeastern United States at major commercial or corporate
                     farming/agricultural operations. During the course of the conspiracy, the



Semiannual Report to Congress                                                                   35
April 1, 2006–September 30, 2006
       Employment and                                                Foreign Labor Certification
      Training Programs

                     defendants failed to pay $5.7 million in payroll taxes, including approximately
                     $330,000 in unpaid UI taxes. They also laundered monies in excess of $28
                     million. Three remaining defendants are Federal fugitives, at large and
                     believed to be overseas. This was a joint case with ICE and the IRS. U.S. v.
                     Jaroslaw Sawczuk; U.S. v. Jozef Bronislaw Bogacki; and U.S. v. Pavel Preus
                     (S.D. Florida)




Semiannual Report to Congress                                                                    36
April 1, 2006–September 30, 2006
                                                                        Unemployment Benefits
 Worker Benefits Programs


Unemployment Benefits
                     The Unemployment Insurance (UI) program, a Federal-state partnership, is
                     the Department’s largest income maintenance program. This multibillion-
                     dollar program provides income maintenance to persons who are
                     unemployed and otherwise meet eligibility requirements as determined under
                     state law, which must conform to Federal law requirements. The purpose of
                     the Disaster Unemployment Assistance (DUA) program is to provide
                     unemployment assistance to individuals who become unemployed or cannot
                     commence employment as a direct result of a major disaster, but are not
                     covered under the Federal or state UI programs.

                     OIG audits conducted during this period questioned costs claimed by one
                     state and identified a number of UI and DUA overpayments to persons
                     impacted by Hurricanes Katrina and Rita. OIG investigations are currently
                     identifying UI and DUA fraud schemes that are more complex, costly, and far
                     reaching than in the past. They include schemes involving identity theft and
                     nontraditional organized crime groups. In recent years, the program has
                     suffered losses in the millions of dollars because of a variety of fraud
                     schemes.

        State of California Could Not Document Direct Labor
        Costs Charged to ETA Grants
                     The OIG conducted a performance audit of $462.7 million in direct labor costs
                     charged to DOL ETA grants awarded to the State of California Employment
                     Development Department (EDD) for State Fiscal Years (SFYs) 2001 and
                     2002. We found that EDD could not support the basis for allocation of about
                     $76.7 million in costs claimed. EDD did not have adequate internal controls to
                     ensure compliance with Federal cost principles, and allocated the costs on an
                     estimated basis without reviewing and adjusting the estimated costs to actual
                     costs. As a result, we questioned the $76.7 million in unsupported costs.
                     We recommended that ETA direct EDD to submit documentation to support
                     the adjustment from estimated to actual costs concerning the $76.7 million for
                     SFYs 2001 and 2002, as well as support for the adjustment from estimated to
                     actual costs charged to ETA grants for SFYs 2003–2005. Based on the
                     results of these adjustments, ETA should recover the costs overcharged to
                     the ETA grants. We also recommended that ETA direct EDD to submit for
                     approval an allocation methodology for the costs that benefit more than one
                     program or activity to ensure that its methodology for charging costs to ETA
                     grants fully complies with applicable criteria mandated by Office of
                     Management and Budget (OMB) Circular A-87.
                     EDD officials responded that they adjusted five years of sampled employee
                     timesheet data from estimated to actual costs. They stated that factoring in
                     costs they had underreported resulted in a net undercharge of $234,000 to
                     ETA grants. EDD officials also stated that, effective July 1, 2005, EDD
                     submitted to DOL for approval an Indirect Cost Rate Proposal that uses



Semiannual Report to Congress                                                                   37
April 1, 2006–September 30, 2006
                                                                           Unemployment Benefits
 Worker Benefits Programs

                     revised cost pools and allocation procedures. The recommendations will be
                     resolved during ETA’s formal audit resolution process. (Report 03-06-006-03-
                     315, issued September 13, 2006)

        Individuals Received Unemployment Benefits While
        Receiving Public Service Employment Wages
                     While conducting an ongoing performance audit, the OIG performed a series
                     of data mining and data analyses on unemployment benefits and Public
                     Service Employment (PSE) wages received by individuals in Louisiana,
                     Mississippi, and Texas. After Hurricane Katrina hit on August 29, 2005, a
                     national emergency was declared, making DUA available to residents of the
                     affected areas who had lost their jobs, or were unable to return to their jobs
                     as a result of the hurricane, if they did not qualify for state UI. Hurricane Rita
                     resulted in another national emergency declaration on September 24, 2005.
                     In response to Hurricane Katrina, ETA awarded Louisiana and Texas each
                     with a National Emergency Grant (NEG) to provide temporary PSE jobs for
                     dislocated workers. The NEGs were later modified to allow the temporary
                     PSE jobs to also include temporary jobs in the public sector that were not
                     directly related to the disaster, and to provide the same services to individuals
                     affected by Hurricane Rita.
                     Through our analyses, we found that numerous individuals received
                     unemployment benefits while also receiving PSE wages:
                             •     Louisiana overpaid $126,663 in DUA or UI benefits to 177 of 201
                                   sampled Texas PSE participants.
                             •     Louisiana overpaid $105,170 in DUA or UI benefits to 107 of 120
                                   sampled Louisiana PSE participants.
                             •     Texas overpaid $17,384 in DUA or UI benefits to 17 individuals
                                   while they received PSE wages in Texas.
                             •     Mississippi overpaid $4,498 in UI benefits to 3 individuals while
                                   they received PSE wages in Texas.
                     We also found that Louisiana’s and Texas’ Management Information Systems
                     (MIS) did not accurately reflect PSE participants’ program status:
                             •     Louisiana’s MIS data files identified that only 5 of the 120 sampled
                                   participants’ PSE program participation had ended. For the 115
                                   participants the State’s MIS showed as still enrolled in PSE, 76
                                   participants (66 percent) were not enrolled and 13 claimants never
                                   worked under the PSE program.
                             •     Texas’ MIS data files identified that only 21 of the 201 sample
                                   participants’ PSE program participation had ended. For the 180
                                   participants the State’s MIS showed as still enrolled in PSE, 83
                                   participants (46 percent) were not enrolled and 22 claimants never
                                   worked under the PSE program.
                     We recommended that ETA work with the states to establish and collect
                     identified DUA and UI overpayments, as appropriate, and to determine
                     whether additional overpayments should be established based on State


Semiannual Report to Congress                                                                       38
April 1, 2006–September 30, 2006
                                                                           Unemployment Benefits
 Worker Benefits Programs

                     payroll audits of the PSE programs. We also recommended that ETA ensure
                     that the States’ NEG participant data is updated to properly reflect PSE
                     participants’ termination status, where necessary. ETA agreed to take
                     appropriate action to address our recommendations. (Management Letters
                     06-06-006-03-315, 06-06-007-03-315, and 06-06-011-03-315, issued
                     September 29, 2006)

        Individuals Received Unemployment Benefits in More
        Than One State
                     While conducting an ongoing performance audit, we analyzed DUA and UI
                     claims filed in Louisiana and Mississippi following Hurricanes Katrina and Rita
                     to identify instances of individuals receiving DUA in one state while receiving
                     either DUA or state UI in the other state.
                     Through our analysis, we determined the following:
                             •     The State of Louisiana paid $54,782 of Hurricanes Katrina- and
                                   Rita-related DUA to 45 individuals who also received UI from the
                                   State of Mississippi.
                             •     The States of Louisiana and Mississippi paid DUA claims to the
                                   same 40 individuals, resulting in overpayments of $74,382 in DUA
                                   benefits.
                                       o Louisiana overpaid claims totaling $59,682 through the
                                           week ending March 4, 2006 and
                                       o Mississippi overpaid claims totaling $14,700 through the
                                           week ending February 25, 2006.
                     Louisiana has already taken action to collect refunds on a portion of the
                     identified overpayments.
                     We recommended that ETA direct the states to establish and collect the
                     overpayments not already collected,; determine any other overpayments
                     made to these claimants and include them in the states’ overpayments and
                     collections; and continue to work with OIG criminal investigators and the
                     states to expedite the identification of fraudulent claims for appropriate action.
                     ETA agreed to take appropriate action to address our recommendations.
                     (Management Letters 06-06-009-03-315, issued September 13, 2006, and
                     06-06-010-03-315, issued September 29, 2006)

        Hurricane Katrina Reconstruction Company Owner
        Charged with Not Paying $1.4 Million in Employment
        Taxes
                     The owner and operator of an Indiana-based labor leasing company was
                     charged August 8, 2006, with mail fraud and failure to account for and remit
                     employee withholding taxes relating to its disaster reconstruction work
                     involving Hurricanes Francis and Katrina. In the alleged scheme, the owner
                     hired employees to travel to Florida, paid the employees hourly wages, and
                     purported to withhold their income and Social Security taxes. While allegedly
                     withholding the taxes, the owner did not account for and pay the Federal


Semiannual Report to Congress                                                                       39
April 1, 2006–September 30, 2006
                                                                           Unemployment Benefits
 Worker Benefits Programs

                     taxes to the IRS. The owner is charged with neither registering with the state
                     of Indiana nor paying into its unemployment compensation fund as required.
                     The charges further allege that the owner spent approximately $1.4 million,
                     which should have been paid to state and Federal agencies, on personal
                     expenses including mortgage payments, automobiles, a boat, a swimming
                     pool, home improvements, and jewelry. This is a joint investigation with the
                     IRS, ICE, SSA OIG, Environmental Protection Agency (EPA), USPIS, Indiana
                     State Police, Indiana Department of Workforce Development, and Carmel
                     Police Department.

        Former Contractor Pleads Guilty to Charges of
        Defrauding Disaster Unemployment Assistance
        Program
                     Wayne Peter Lawless, a former contractor for the Louisiana National Guard
                     at the Baton Rouge Career and Job Center, pled guilty on July 17, 2006, to
                     charges of “Extortion Under Color of Official Right” for his role in the filing of
                     approximately 80 fraudulent DUA and UI claims with the Louisiana
                     Department of Labor relating to Hurricane Katrina relief payments.
                     Lawless assisted in the filing and processing of DUA and UI claims for people
                     he knew were not qualified to receive such assistance. A number of these
                     claims involved the use of fraudulent Social Security numbers and names.
                     The scheme caused debit cards valued at a total of over $141,942 to be
                     mailed to claimants at addresses provided by an accomplice. Each false
                     claim had the potential to collect $3,822 in fraudulent benefits, for a total of
                     $305,760. This was a joint investigation with the SSA OIG, USPIS, and FBI.
                     U.S. v. Wayne P. Lawless (M.D. Louisiana)

        Man Pleads Guilty to Disaster Unemployment
        Assistance Fraud Charges
                     Dee Jay Frazier pled guilty on July 6, 2006, to charges of false use of Social
                     Security numbers for his scheme to obtain Louisiana DUA debit cards.
                     Beginning on or about September 29, 2005, Frazier fraudulently submitted 11
                     different claims for Louisiana DUA using various names and Social Security
                     numbers. DUA debit cards were mailed to Frazier at four different addresses
                     in Denver, Colorado. At the time of Frazier’s arrest, 29 weeks of DUA benefits
                     had been credited to each of the 11 cards, resulting in a total loss of
                     approximately $28,420. Frazier had the potential to collect over $42,000. This
                     was a joint investigation with the SSA OIG. U.S. v. Dee Jay Frazier (M.D.
                     Louisiana)

        Indictments and Guilty Pleas in UI Identity Theft
        Scheme
                     A June 22, 2006, superseding indictment charged 6 additional individuals in a
                     scheme to defraud the California Employment Development Department
                     (EDD). This judicial action has brought to 13 the number of people charged



Semiannual Report to Congress                                                                       40
April 1, 2006–September 30, 2006
                                                                          Unemployment Benefits
 Worker Benefits Programs

                     with conspiracy, mail fraud, identity theft, and aggravated identity theft for
                     filing thousands of false UI claims with the EDD. On June 12, 2006, 2 of the
                     13 pled guilty for their roles in the scheme. Francisco Lopez pled guilty to
                     mail fraud and aiding and abetting, and Francisco Ramos pled guilty to
                     conspiracy to commit mail fraud and identity theft.
                     The subjects of the later indictment are either current or past employees of a
                     car dealership. They are alleged to have stolen credit card applications from
                     that dealership to carry out their scheme. The group allegedly filed claims
                     using thousands of fraudulently acquired employees’ identities, which
                     included names and Social Security numbers. They then purportedly used
                     the fraudulently acquired information to both file false claims with the EDD
                     and have UI checks sent to numerous post office boxes and other addresses
                     they controlled. One individual is accused of causing approximately $36,000
                     in UI checks to be mailed to four of his former residences. As of the reporting
                     date, approximately $1,514,930 in suspected fraudulent claims has been
                     paid. This is a joint investigation with the FBI and the California EDD. U.S. v.
                     Juan Rosas Jr., et al. (E.D. California)

        Sentences in Unemployment Insurance Fraud
        Scheme
                     Two individuals were sentenced in August 2006 for their roles in a conspiracy
                     to defraud the DOL UI benefits system. John Slaughter, a former Texas
                     Workforce Commission (TWC) employee, was sentenced on August 11,
                     2006, to 24 months in Federal prison and 36 months’ supervised probation
                     after release, and ordered to pay $939,903 in restitution. Brenda Bowers was
                     sentenced on August 18, 2006, to 12 months’ home confinement and five
                     years’ probation, and ordered to pay $13,848 in restitution. Two other
                     defendants, Denetra McElroy and LaJuana Destin, are awaiting sentencing
                     after being jointly convicted on April 3, 2006, of mail fraud and conspiracy.
                     As part of his duties at the TWC, Slaughter interviewed UI claimants and
                     assisted in determining who qualified for benefits. Over a five-year period,
                     Slaughter assisted several individuals in obtaining UI benefits to which they
                     were not entitled. Additionally, he created several fictitious employers and
                     solicited bribes to file and process false, fraudulent claims for UI benefits. As
                     part of the scheme, other individuals who were acquaintances of Slaughter
                     assisted in the filing of fraudulent UI claims by allowing themselves to be
                     listed as bogus employers. Slaughter’s actions allowed more than 250
                     fraudulent claims to be approved, which resulted in approximately $500,000
                     in illegal payments. This was a joint investigation with the TWC. U.S. v. John
                     Slaughter (S.D. Texas)

        Former UI Employee Sentenced for Creating
        Fraudulent Claims
                     Simona Franklin, a former Michigan Unemployment Insurance Agency
                     (MUIA) employee, received an 18-month suspended sentence on September
                     18, 2006, with a requirement to serve one day in the custody of the Bureau of



Semiannual Report to Congress                                                                      41
April 1, 2006–September 30, 2006
                                                                           Unemployment Benefits
 Worker Benefits Programs

                     Prisons, three years’ supervised release, and pay restitution of $143,479.
                     She was also ordered to be employed on a full-time basis and to enroll in an
                     intensive drug-treatment program. The incarceration portion of the sentence
                     was suspended provided that Franklin not have a positive drug test during
                     her supervised release period. Franklin pled guilty to charges of mail fraud
                     charges on June 19, 2006, for her role in a scheme to defraud MUIA.
                     Franklin’s mother, Christine Dugger, pled guilty to charges of mail fraud on
                     May 10, 2006, for her role in Franklin’s scheme. On September 19, 2006, a
                     superseding information was filed that charges another family member with
                     mail fraud.
                     Franklin established fraudulent unemployment claims for individuals who
                     were not eligible to receive unemployment benefits. Franklin manually input
                     identity information for six individuals, including three of her family members,
                     into the MUIA system to generate 93 fraudulent benefit checks totaling
                     $143,479. This case is being worked jointly with MUIA and the FBI. U.S. v.
                     Simona Franklin (E.D. Michigan)

        California UI System Employee Charged in Fraudulent
        Claims Scheme
                     A former accounting technician for the California EDD was charged on April
                     27, 2006, with making improper entries in EDD’s computerized UI system. A
                     review of computer entries showed that between December 2004 and
                     October 2005, wage histories of several of the defendant’s friends and
                     relatives had been altered by adding wages to increase their collection of UI
                     benefits. As part of her scheme, the defendant allegedly used two inactive
                     companies as base period employers, allowing the filing of several fraudulent
                     UI claims. The entries resulted in substantial benefits for the defendant’s
                     friends and family members, who received over $100,000 in UI benefits, most
                     of which they were not entitled to receive. This is a joint investigation with the
                     California EDD.




Semiannual Report to Congress                                                                       42
April 1, 2006–September 30, 2006
                                                   Office of Workers’ Compensation Programs
 Worker Benefits Programs


Office of Workers’ Compensation Programs
                     The Employment Standards Administration’s (ESA’s) Office of Workers’
                     Compensation Programs (OWCP) administers four major disability
                     compensation programs, which provide wage replacement benefits, medical
                     treatment, vocational rehabilitation, and other benefits to certain workers or
                     their dependents who experience work-related injury or occupational disease.
                     Two such programs are the Federal Employees’ Compensation Act (FECA)
                     program and the Black Lung Benefits program. In the FECA program alone,
                     nearly $2.5 billion in medical and death benefits and wage loss compensation
                     was paid from October 2005, to September 2006, with more than half of
                     those benefits paid to injured employees of the U.S. Postal Service, the
                     Department of the Navy, and the Department of the Army. It is important to
                     note that the removal of a single fraudulent claimant from Federal benefit rolls
                     creates, on average, a $300,000–$500,000 savings for the government.

        Better Controls Needed for OWCP’s Nurse
        Intervention Program
                     In response to a complaint from a former OWCP contract nurse, the OIG
                     performed an audit of OWCP’s procedures for ensuring that contract nurses
                     with the Nurse Intervention Program were properly licensed and that their
                     access to confidential medical records was restricted to only assigned cases.
                     We found that while OWCP generally had procedures for documenting
                     contract nurse licenses and restricting their access to medical records in
                     claimant files, these procedures needed to be strengthened. OWCP’s
                     procedures for requiring verification of nurse licenses during contracting and
                     hiring did not also require periodic review to ensure that licenses were
                     renewed and in good standing. OWCP’s procedures for restricting contract
                     nurse access to medical records required the claimant to be responsible for
                     notifying medical providers when a contract nurse should or should not
                     receive medical information. However, OWCP communications with
                     claimants did not state the claimant’s level of responsibility for notifying
                     medical providers regarding nurse access to medical information, and
                     claimants were not notified when contract nurses were no longer actively
                     assigned to the claim.
                     We recommended that ESA improve internal controls for the Nurse
                     Intervention Program with respect to periodic documentation of nurse
                     licenses and restricting access to medical records. In its comments, ESA
                     concurred and stated it will be developing new procedures to address the
                     recommendations. (Report 02-06-207-04-431, issued September 29, 2006)

        Daughter Sentenced for Receiving Deceased Father’s
        Benefit Money
                     Alice F. Wheeler, the daughter of a deceased Black Lung Trust Fund
                     beneficiary, was sentenced on June 16, 2006, to five years’ probation and 30



Semiannual Report to Congress                                                                     43
April 1, 2006–September 30, 2006
                                                    Office of Workers’ Compensation Programs
 Worker Benefits Programs

                     days’ home confinement for theft of government property. Wheeler was
                     further ordered to pay $45,765.30 in restitution to the DOL Black Lung Trust
                     Fund, and a $100 assessment for failing to notify the DOL of her father’s
                     death and for submitting falsified biyearly forms on his behalf. Wheeler had
                     pled guilty on April 7, 2006. From November 1997 through May 2005,
                     Wheeler submitted documents to DOL that implied her father was still alive.
                     Suspicion was raised after she noted that her father was hospitalized, blind,
                     and had Alzheimer’s disease. Wheeler lied to a DOL Black Lung Trust Fund
                     claims examiner and falsely signed her father’s signature on a DOL form
                     submitted five years after his death. U.S. v. Alice Wheeler (N.D. Ohio)

        Granddaughter Pleads Guilty to Charges of Stealing
        Grandmother’s Benefit Money
                     Jacqueline Lounden pled guilty on August 18, 2006, to mail fraud charges for
                     defrauding the DOL’s Division of Coal Mine Workers’ Compensation.
                     Lounden was the caretaker of her grandmother, who was a living widow
                     beneficiary for Black Lung Trust Fund benefits. In February 1999, Lounden
                     placed her grandmother into a nursing home but failed to report her
                     grandmother as a Black Lung beneficiary. Because Lounden did not correctly
                     report the Black Lung benefit, her grandmother’s care was paid for by
                     Medicare and by her Social Security benefits. From February 1999 through
                     September 2003, the grandmother’s benefit checks were mailed to Lounden,
                     who forged her grandmother’s signature and signed her own name
                     underneath to negotiate the check at a local bank. Lounden stole $26,983.50
                     worth of Black Lung monies, and is currently awaiting sentencing. U.S. v.
                     Jacqueline Lounden (E.D. Kentucky)

        Former TVA Ironworker Fails to Report Income
                     Dennis M. Jordan, a former ironworker for the Tennessee Valley Authority
                     (TVA), was sentenced on April 5, 2006, to five years’ probation and 12
                     months’ home detention, and ordered to make restitution in the amount of
                     $98,015.40 for making false statements to obtain FECA benefits. Jordan
                     claimed an on-the-job injury to his lower back on January 28, 1981, and was
                     placed on the periodic rolls in lieu of disability retirement on November 29,
                     1990. During the fall of 2000, Jordan concealed the fact that he was being
                     employed to dig wells. On February 6, 2006, OWCP reported an
                     overpayment amount of $308,079.52 relating to Jordan’s work activity. This
                     case was worked jointly with the TVA OIG. U.S. v. Dennis M. Jordan (N.D.
                     Alabama)

        Handyman in Hawaii Accused of Defrauding FECA
                     A former insulator at the Pearl Harbor Naval Shipyard was indicted on June
                     22, 2006, for making false statements to obtain Federal employee disability
                     compensation. In November 1980, the defendant received a serious head
                     injury when he was hit by a loosened steam valve handle. He began
                     receiving monthly FECA benefits shortly after the injury. In January 1999, it is
                     alleged that the defendant and his wife incorporated a home maintenance


Semiannual Report to Congress                                                                     44
April 1, 2006–September 30, 2006
                                                  Office of Workers’ Compensation Programs
 Worker Benefits Programs

                     and handyman business. While collecting monthly benefits and not reporting
                     the business income to DOL OWCP, the defendant claimed that he earned
                     zero income in order to prevent OWCP from reducing his benefit checks. The
                     alleged scheme involved the claimant collecting FECA benefits while earning
                     a total of $140,509.78 by working as a handyman. Between January 1999
                     and February 2003, the claimant allegedly submitted falsified forms to OWCP
                     and received approximately $139,000 in FECA benefits. This was a joint
                     investigation with the U.S. Navy Office of Human Resources.

        Federal Government and Private Insurance
        Companies Falsely Billed Millions
                     Alpha Treatment Centers, Inc. (ATCI), pled guilty on September 27, 2006, to
                     one count of conspiracy for receiving money from insurance claims to which it
                     was not entitled. ATCI, the operator of Texas Durable Medical Equipment,
                     received the money as a result of illegal and fraudulent claims submitted by
                     its employees. Jason White, an employee of ATCI, pled guilty on July 12,
                     2006, to conspiracy charges for his role in a scheme to commit mail fraud and
                     health care fraud. ATCI is operated by Alpha Group, which also operates
                     numerous medical-related businesses in Texas.
                     Several state and Federal workers’ compensation patients were billed by
                     ATCI under their workers’ compensation claim number for durable medical
                     equipment known as cryotherapy units, a system designed to circulate cold or
                     hot water through pads strapped to patients’ body parts. Alpha billed OWCP
                     $495 every nine days for the unit and $395 for the pads. For some of the 146
                     Federal claimants, OWCP paid between $18,000 and $40,000 in rental fees.
                     The purchase price for the units is approximately $295. Alpha continued to
                     bill OWCP even if claimants returned or never received the units. OWCP and
                     private insurance companies were defrauded millions of dollars through the
                     scheme. This case was worked jointly with the U.S. Postal OIG, USPIS,
                     Texas Workers’ Compensation Commission, and Texas Mutual Insurance
                     Company. U.S. v. Jason White (N.D. Texas)




Semiannual Report to Congress                                                                  45
April 1, 2006–September 30, 2006
                                                                         Information Technology
Departmental Management


Information Technology
                     The Department operates sensitive systems consisting of major applications,
                     general support systems, and mission-critical systems. DOL relies on these
                     critical information systems to monitor and analyze the nation’s labor market
                     and economic activities, manage workforce services, and protect and
                     compensate American workers. The OIG tested these systems to ensure that
                     system controls were in place and operating effectively. We also tested and
                     updated the audit findings and recommendations identified in previous years.

        Federal Information Security Management Act
                     As required by the Federal Information Security Management Act (FISMA),
                     the OIG conducted annual independent audits and evaluations to determine
                     whether the Department’s information security program adequately protects
                     data and information systems. During this semiannual reporting period, we
                     completed audits of four of the Department’s 85 sensitive systems. We also
                     performed an evaluation of the Department’s protection of sensitive agency
                     information, resolution work on selected agency information security control
                     recommendations, and independent verification and validation of agency
                     plans of action and milestones.
                     Over the past year, DOL has been recognized for its leadership in reaching
                     green in all categories associated with the President’s Management Agenda,
                     which includes IT security. The Department has continued to focus on
                     activities aimed at improving its information security program. However,
                     based on the results of our work, we believe DOL’s overall information
                     security program can be improved by focusing on access controls in high-
                     and medium-risk systems containing sensitive information. Placing a high
                     priority on this area will help reduce the risk of unauthorized access to
                     systems and sensitive information. Doing so will protect against inadvertent
                     or deliberate misuse, fraudulent use, improper disclosure, or destruction,
                     possibly occurring without detection.
                     The results of our evaluation of the Department’s protection of sensitive
                     agency information and four information system controls audits present
                     challenges to the Department to improve its information security program
                     including protection over sensitive agency information and System security
                     controls effectiveness.
                     Protection Over Sensitive Agency Information
                     Through our evaluation of DOL’s protection of personally identifiable
                     information (PII), as required by OMB Memorandum 06-16, we determined
                     the Department still needs to take significant steps in order to ensure the
                     protection of PII in its information systems. These steps include encrypting all
                     data on mobile computers/devices that carry agency data unless the data is
                     determined, in writing, to be non-sensitive; allowing remote access using a
                     two-step process in which one of the steps is separate from the other, for
                     example, (1) user/password log-on and (2) smartcard access; and using a



Semiannual Report to Congress                                                                     46
April 1, 2006–September 30, 2006
                                                                            Information Technology
Departmental Management

                     “time-out” function for remote access and mobile devices requiring the user to
                     log on after 30 minutes of inactivity. These controls are key elements in the
                     Department’s ability to ensure the protection of PII that is accessed remotely
                     or physically transported or stored outside Department facilities.
                     System Security Controls Effectiveness
                             •     Access Controls: Three component agencies had significant
                                   deficiencies in their overall information systems security programs.
                                   These deficiencies included improper account management, poor
                                   passwords, lack of audit log reviews, excessive access
                                   permissions to sensitive directories, and running unnecessary
                                   services on production servers. Inappropriate access controls
                                   could lead to unauthorized access and changes to the information
                                   system, which could ultimately impact the confidentiality and
                                   integrity of sensitive data generated and stored by the system.

                             •     Change Control Procedures: Two agencies’ information systems
                                   did not have a sufficient process in place to document requests
                                   and approvals to make changes to systems. Neither agency
                                   documented the systems’ existing hardware and software, which
                                   is important in understanding when systems require updating
                                   during routine and preventive maintenance. One system had
                                   outdated and unpatched operating system software running on a
                                   production server. Without proper system documentation and a
                                   process to request and approve system changes, an unnecessary
                                   risk is being taken in which security controls may inadvertently or
                                   deliberately be omitted or malicious code could be introduced.

                             •     Service Continuity: Three information systems had contingency
                                   planning weaknesses, which included contingency plans that were
                                   inaccurate, incomplete, and outdated, and did not meet DOL and
                                   Federal requirements. In addition, personnel were not being
                                   trained in their responsibilities and roles to bring systems back
                                   online in an orderly fashion after a system outage. Losing the
                                   capability to process, retrieve, and protect information maintained
                                   electronically can significantly affect an agency’s ability to
                                   accomplish its mission.

                             •     Incident Response Procedures and Training: Weaknesses in
                                   establishing how to respond to computer security incidents existed
                                   in two component agencies. Neither agency had plans outlining
                                   the steps to take to adequately identify and report incidents to
                                   appropriate officials, nor had these agencies trained individuals
                                   with incident response roles and responsibilities in their duties.
                                   Security incidents, whether caused by viruses, hackers, or
                                   software bugs, are becoming more common and are of more
                                   concern because systems depend on other systems and a breach
                                   of one system’s security can place multiple information assets and
                                   resources at risk of corruption or disclosure. Lack of a formal
                                   documented incident response process, including training, may


Semiannual Report to Congress                                                                       47
April 1, 2006–September 30, 2006
                                                                            Information Technology
Departmental Management

                                   lead to inefficient and ineffective incident response, which may
                                   prevent the detection and proper handling of security incidents.

        Accounting for Costs of DOL Websites Can Be
        Improved
                     The OIG conducted an audit of the Enterprise Communication Initiative (ECI)
                     of DOL Websites at the suggestion of the Deputy Secretary of Labor. In July
                     2004, the Secretary of Labor announced the ECI to better manage the
                     Department’s dispersed public Internet and Intranet Websites,
                     communications centers, and translation services. ECI supports the
                     President’s Management Agenda component of expanded E-Gov by utilizing
                     the Internet to support the dissemination of vital DOL information and data to
                     the public. The Assistant Secretary for Public Affairs (ASPA) has been
                     delegated authority and responsibility for implementing and managing the
                     ECI.
                     We found that DOL agencies did not accurately account for the costs of
                     purchases, staff, and contracting services dedicated to developing and
                     maintaining their Websites. Specifically, they did not always use the special
                     accounting code established by the Office of the Chief Financial Officer to
                     ensure that these costs were reported as Website costs in the Department’s
                     accounting system (DOLAR$). As a result, the Website costs were
                     understated. We also found that:
                             •     written policies requiring the use of the accounting code for
                                   applicable Website costs were ineffective because they were both
                                   unclear and not adhered to;
                             •     staff did not account for specific time spent on website activities,
                                   and DOLAR$ was not set up to automatically allocate time based
                                   on each individual activity an employee undertakes; and
                             •     there was inadequate monitoring to ensure that costs intended to
                                   be reported as Website costs were reported correctly in DOLAR$.
                     We made three recommendations to the ASPA to ensure Website–related
                     costs are properly reported in DOLAR$ and monitored for compliance by
                     agency management. The ASPA agreed with the recommendations but
                     stated that corrective actions will require the involvement of other agencies.
                     (Report 03-06-007-01-001, issued September 29, 2006)




Semiannual Report to Congress                                                                       48
April 1, 2006–September 30, 2006
                                                                                      Procurement
Departmental Management


Procurement
                     As part of the OIG’s ongoing oversight of the Departmental procurement
                     function, we issued two reports relating to DOL’s adherence to acquisition
                     requirements.

        There Was No Evidence Contracting Officers Were
        Checking Required Sources Before Making GSA
        Schedule Procurements
                     The OIG conducted an audit to determine whether DOL procured supplies
                     and services through the General Services Administration (GSA) Schedules
                     program in accordance with prescribed rules and regulations. In FY 2005,
                     DOL agencies procured an estimated $1.7 billion in supplies and services
                     through over 8,300 separate actions. Of these, over 2,500 represented
                     procurements through GSA Schedules at a cost of about $166 million.
                     According to the Federal Acquisition Regulation (FAR), agencies are required
                     to check two different sources before procuring through GSA Schedules:
                     existing government inventories of excess personal property, if applicable,
                     and nonprofit agencies on the procurement list provided by the Committee for
                     Purchase from People Who Are Blind or Severely Disabled.
                     DOL requires that Contracting Officers (COs) complete the Simplified
                     Acquisition Documentation Checklist to show that required sources of
                     supplies/services were reviewed prior to the selection of the vendor. In
                     OASAM and the Bureau of Labor Statistics (BLS), the Checklist form was in
                     the contract files; however, the form does not provide sufficient information to
                     indicate whether or not Contracting Officers were checking these required
                     sources when applicable. In ETA and MSHA, the COs used an alternate form
                     and not the required Checklist. We made three recommendations to the Chief
                     Acquisition Officer to ensure COs’ compliance with prescribed rules and
                     regulations regarding checking excess inventories and required sources prior
                     to procuring supplies and services. The agency concurred with the
                     recommendations and has initiated corrective actions. (Report 05-06-004-07-
                     001, issued September 15, 2006)

        ETA Contract Violated Small Business Administration
        Section 8(a) Program Requirements
                     We conducted a performance audit of ETA, Division of Contract Services’
                     procurement action with The Creative Eye dba TCE Digital Solutions (TCE) of
                     Camp Springs, Maryland. We found that ETA violated Small Business
                     Administration (SBA) regulations and the contract provisions. As a result, we
                     issued an Alert Report calling for ETA’s immediate attention. Although the
                     contract was awarded by ETA, it also involved Job Corps.
                     In June 2005, ETA contacted SBA concerning its requirement for a potential
                     acquisition under Section 8(a) of the SBA Act. Based on the information
                     presented to SBA in ETA’s request, SBA authorized ETA to negotiate and
                     contract directly with TCE for specified services, in accordance with


Semiannual Report to Congress                                                                     49
April 1, 2006–September 30, 2006
                                                                                       Procurement
Departmental Management

                     streamlined 8(a) contracting procedures outlined in the partnership
                     agreement between SBA and DOL.
                     We identified three violations of either SBA regulations or the contract
                     provisions:
                             •     the current value of the TCE contract exceeded the $3 million limit
                                   for the life of the contract allowed in SBA regulations;
                             •     contrary to the regulations, TCE had not “performed 50 percent of
                                   the cost of the contract incurred for personnel with its own
                                   employees”; and
                             •     although the solicitation package that ETA submitted, and SBA
                                   approved, was limited to tasks only in the Job Corps program, the
                                   Statement of Work in the executed contract with TCE provided for
                                   general tasks, which allowed ETA to issue task orders for
                                   programs and functions throughout ETA.
                     We made three recommendations to the Deputy Secretary to take immediate
                     action to ensure that all pending modifications to the TCE contract were
                     stopped; ensure that no additional funds or task orders were added to the
                     contract; and, since the $3 million lifetime limit of the contract had been
                     exceeded, not exercise the contract’s one-year option. ETA agreed with the
                     recommendations and has initiated corrective actions. (Report 05-06-005-03-
                     390, issued June 19, 2006)




Semiannual Report to Congress                                                                      50
April 1, 2006–September 30, 2006
         Legislative
      Recommendations

Legislative Recommendations
                     The Inspector General Act requires the OIG to review existing or proposed
                     legislation and regulations and to make recommendations in the Semiannual
                     Report concerning their impact on the economy and efficiency of the
                     Department’s programs and on the prevention of fraud and abuse.

        Allow DOL Access to Wage Records
                     The DOL and the SSA currently have a memorandum of understanding
                     (MOU) in place that allows State Workforce Agencies to access Social
                     Security data on individuals who apply for UI. The MOU is a good first step.
                     However, to reduce overpayments in employee benefit programs, including
                     UI and FECA, the Department and the OIG need legislative authority to easily
                     and expeditiously access state UI wage records, SSA wage records, and
                     employment information from the National Directory of New Hires, which is
                     maintained by the Department of Health and Human Services.
                     A provision in the State Unemployment Tax Authority (SUTA) Dumping
                     Prevention Act of 2004 (Public Law 108-295) enables state agencies
                     responsible for the administration of unemployment compensation programs
                     to obtain access to the National Directory of New Hires. By cross-matching UI
                     claims against this new-hire data, states can better detect overpayments to
                     UI claimants who have gone back to work but who continue to collect UI
                     benefits. However, this law does not provide DOL or the OIG with access to
                     the National Directory of New Hires. To make the New Hire data even more
                     useful for this purpose, Congress should require that employers report a new
                     hire’s first day of earnings and provide a clear, consistent, nationwide
                     definition for this date. Moreover, access to SSA and UI data would allow the
                     Department to measure the long-term impact of employment and training
                     services on job retention and earnings. Outcome information of this type for
                     program participants is otherwise difficult to obtain.

        Amend Pension Protection Laws
                     Legislative changes to ERISA and criminal penalties for ERISA violations
                     would enhance the protection of assets in pension plans. To this end, the
                     OIG recommends the following:
                             •     Expand the authority of EBSA to correct substandard benefit
                                   plan audits and ensure that auditors with poor records do not
                                   perform additional plan audits. Changes should include
                                   providing EBSA with greater enforcement authority over
                                   registration, suspension, and debarment and the ability to levy civil
                                   penalties against employee benefit plan auditors. The ability to
                                   correct substandard audits and take action against auditors is
                                   important because benefit plan audits help protect participants
                                   and beneficiaries by ensuring the proper value of plan assets and
                                   computation of benefits.




Semiannual Report to Congress                                                                        51
April 1, 2006–September 30, 2006
         Legislative
      Recommendations

                             •     Repeal ERISA’s limited-scope audit exemption. This provision
                                   excludes pension plan assets invested in banks, savings and
                                   loans, insurance companies, and the like from audits of employee
                                   benefit plans. The limited scope prevents independent public
                                   accountants who are auditing pension plans from rendering an
                                   opinion on the plans’ financial statements in accordance with
                                   professional auditing standards. These “no opinion” audits provide
                                   no substantive assurance of asset integrity to plan participants or
                                   to the Department.

                             •     Require direct reporting of ERISA violations to DOL. Under
                                   current law, a pension plan auditor who finds a potential ERISA
                                   violation is responsible for reporting it to the plan administrator,
                                   but not directly to DOL. To ensure that improprieties are
                                   addressed, we recommend that plan administrators or auditors be
                                   required to report potential ERISA violations directly to DOL. This
                                   would ensure the timely reporting of violations and would more
                                   actively involve accountants in safeguarding pension assets,
                                   providing a first line of defense against the abuse of workers’
                                   pension plans.

                             •     Strengthen criminal penalties in Title 18 of the United States
                                   Code. Three sections of Title 18 serve as the primary criminal
                                   enforcement tools for protecting pension plans covered by ERISA.
                                   Embezzlement or theft from employee pension and welfare plans
                                   is prohibited by Section 664, making false statements in
                                   documents required by ERISA is prohibited by Section 1027, and
                                   giving or accepting bribes related to the operation of ERISA-
                                   covered plans is outlawed by Section 1954. Sections 664 and
                                   1027 subject violators to 5 years’ imprisonment, while Section
                                   1954 calls for up to 3 years’ imprisonment. We believe that raising
                                   the maximum penalties to 10 years for all three violations would
                                   serve as a greater deterrent and would further protect employee
                                   pension plans.

        Provide Authority to Ensure the Integrity of the
        Foreign Labor Certification Process
                     If DOL is to have a meaningful role in the H-1B specialty occupations foreign
                     labor certification process, it must have the statutory authority to ensure the
                     integrity of that process, including the ability to verify the accuracy of
                     information provided on labor condition applications. Currently, DOL is
                     statutorily required to certify such applications unless it determines them to
                     be “incomplete or obviously inaccurate.” Our concern with the Department’s
                     limited ability to ensure the integrity of the certification process is heightened
                     by the results of OIG analysis and investigations that show that the program
                     is susceptible to significant fraud and abuse, particularly by employers and
                     attorneys.




Semiannual Report to Congress                                                                       52
April 1, 2006–September 30, 2006
         Legislative
      Recommendations

                     Moreover, we believe that vulnerabilities in the foreign labor certification
                     programs administered by DOL and other agencies could be remedied by the
                     following changes:
                             •     All foreign nationals should have their eligibility determined by the
                                   U.S. Citizenship and Immigration Services before the employer’s
                                   labor certification application is reviewed by DOL.
                             •     DOL should have latitude and authority to deny applications for
                                   any misrepresentations or suspected fraud.
                             •     Applications should be alien-specific, with no substitutions
                                   allowed.
                             •     Foreign labor certifications should have an expiration date.
                             •     The sale, barter, and/or purchase of approved labor certifications
                                   and applications by an employer, alien, agent, attorney, or
                                   otherwise interested party should be prohibited and vigorously
                                   prosecuted.

        Enhance the WIA Program Through Reauthorization
                     The reauthorization of the WIA provides an opportunity to revise WIA
                     programs to better achieve their goals. Based on our audit work, the OIG
                     recommends the following:
                             •     Improve state and local reporting of WIA obligations. A
                                   disagreement between ETA and the states about the level of
                                   funds available to states drew attention to the way WIA obligations
                                   and expenditures are reported. The OIG’s prior work in nine states
                                   and Puerto Rico showed that obligations provide a more useful
                                   measure for assessing states’ WIA funding status if obligations
                                   accurately reflect legally committed funds and are consistently
                                   reported.

                             •     Modify WIA to encourage the participation of training
                                   providers. WIA participants use individual training accounts to
                                   obtain services from approved eligible training providers.
                                   However, performance reporting and eligibility requirements for
                                   training providers have made some potential providers unwilling to
                                   serve WIA participants.

                             •     Support amendments to resolve uncertainty about the release
                                   of WIA participants’ personally identifying information for
                                   WIA reporting purposes. Some training providers are hesitant to
                                   disclose participant data to states for fear of violating the Family
                                   Education Rights and Privacy Act.

                             •     Strengthen incumbent worker guidance to states. Currently no
                                   Federal criteria define how long an employer must be in business
                                   or an employee must be employed to qualify as an incumbent
                                   worker, and no Federal definition of “eligible individual” exists for
                                   incumbent worker training. Consequently, a state could decide



Semiannual Report to Congress                                                                        53
April 1, 2006–September 30, 2006
         Legislative
      Recommendations

                                   that any employer or employee can qualify for a WIA-funded
                                   incumbent worker program.

        Improve the Integrity of the FECA Program
                     The OIG continues to support reforms to improve the integrity of the FECA
                     program. Implementing the following changes would result in significant
                     savings for the Federal government:
                             •     Move claimants into a form of retirement after a certain age if they
                                   are still injured.
                             •     Return a 3-day waiting period to the beginning of the 45-day
                                   continuation-of-pay process to require employees to use accrued
                                   sick leave or leave without pay before their benefits begin.
                             •     Grant authority to DOL to directly and routinely access Social
                                   Security wage records in order to identify claimants defrauding the
                                   program.




Semiannual Report to Congress                                                                       54
April 1, 2006–September 30, 2006
                Appendix

Appendix
Requirements Under the Inspector General Act of 1978

Section 4(a)(2)—Review of Legislation and Regulation ............................................................. 51

Section 5(a)(1)—Significant Problems, Abuses, and Deficiencies.............................................. All

Section 5(a)(2)—Recommendations with Respect to Significant
Problems, Abuses, and Deficiencies ......................................................................................... All

Section 5(a)(3)—Prior Significant Recommendations on Which
Corrective Action Has Not Been Completed............................................................................... 62

Section 5(a)(4)—Matters Referred to Prosecutive Authorities .................................................... 64

Section 5(a)(5) and Section 6(b)(2)—Summary of Instances Where
Information Was Refused ...................................................................................................... None

Section 5(a)(6)—List of Audit Reports ....................................................................................... 58

Section 5(a)(7)—Summary of Significant Reports ..................................................................... All

Section 5(a)(8)—Statistical Tables on Management Decisions on Questioned Costs ............... 57

Section 5(a)(9)—Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use ................................................................. 56

Section 5(a)(10)—Summary of Each Audit Report Over Six Months Old for
Which No Management Decision Has Been Made ..................................................................... 62

Section 5(a)(11)—Description and Explanation for Any Significant Revised
Management Decision ........................................................................................................... None

Section 5(a)(12)—Information on Any Significant Management Decisions with
Which the Inspector General Disagrees ................................................................................ None




Semiannual Report to Congress                                                                                                    55
April 1, 2006–September 30, 2006
                                                                    Funds Put to Better Use
             Appendix

                                      Agreed to by DOL
                                                                    Number of   Dollar Value
                                                                      Reports    ($ millions)
For which no management decision had been made as of the
commencement of the reporting period                                        1           36.7
Issued during the reporting period                                          0            0.0
        Subtotal                                                            1           36.7
For which management decision was made during the reporting
period:
  •   Dollar value of recommendations that were agreed to by
      management                                                                        33.0
  •   Dollar value of recommendations that were not agreed to by
      management                                                                         3.7
  For which no management decision had been made as of the
  end of the reporting period                                               0            0.0



                                     Implemented by DOL
                                                                    Number of   Dollar Value
                                                                      Reports    ($ millions)
For which final action had not been taken as of the commencement
of the reporting period                                                     6          438.6
For which management or appeal decisions were made during the
reporting period                                                            1           33.0
        Subtotal                                                            7          471.6
For which final action was taken during the reporting period:
  •   Dollar value of recommendations that were actually
      completed                                                                         20.1
  •   Dollar value of recommendations that management has
      subsequently concluded should not or could not be
      implemented or completed                                                          13.0
For which no final action had been taken by the end of the period           5          438.5




Semiannual Report to Congress                                                             56
April 1, 2006–September 30, 2006
                                                                                         Resolution Activity Related to
                           Appendix                                            Inspector General Issued Audit Reports



                                                           Questioned Costs
                                                                                                    Number of          Disallowed
                                                                                                      Reports               Costs
                                                                                                                       ($ millions)
        For which no management decision had been made as of the                                              34               16.2
        commencement of the reporting period (as adjusted)
        Issued during the reporting period                                                                    36               90.2
                     Subtotal                                                                                 70              106.4
        For which a management decision was made during the reporting
        period:
             •     Dollar value of disallowed costs                                                                              1.2

             •     Dollar value of costs not disallowed                                                                          8.8
        For which no management decision had been made as of the end                                          51               96.4
        of the reporting period
        For which no management decision had been made within six                                                                6.3
        months of issuance



                                                            Disallowed Costs
                                                                                                    Number of          Disallowed
                                                                                                      Reports               Costs
                                                                                                                       ($ millions)
        For which final action had not been taken as of the commencement                                      77               22.8
        of the reporting period (as adjusted)*
        For which management or appeal decisions were made during the                                         18               15.5
        reporting period
                   Subtotal                                                                                   94               38.3
        For which final action was taken during the reporting period:**
             •     Dollar value of disallowed costs that were recovered                                                          3.7

             •     Dollar value of disallowed costs that were written off by                                                      .2
                   management
        For which no final action had been taken by the end of the                                            85               34.4
        reporting period

        *        Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit reports will remain
                 open awaiting final recoveries/write-offs to be recorded.
        **       Does not include $1.7 million of disallowed costs that are under appeal.




Semiannual Report to Congress                                                                                                            57
April 1, 2006–September 30, 2006
                                                                   Final Audit and Attestation Reports Issued
                         Appendix


                    Program Name                           Date        Report           # of Nonmonetary Questioned Funds Put to
                    Name of Report                        Issued       Number           Recommendations    Costs     Better Use
                                                                                                            ($)          ($)
                                                     Employment and Training Programs
United States Employment Service
  Single Audit: State of Montana                            06-29-06 21-06-545-03-320          3           31,416        0
  Single Audit: State of California                         07-13-06 21-06-550-03-320          3              0          0
  Single Audit: Department of Labor and Industrial
                                                            07-11-06 21-06-551-03-320          1           165,535       0
                  Relations, State of Hawaii
Trade Adjustment
  Single Audit: State of Texas Comptroller of
                                                            07-25-06 21-06-548-03-330          3           17,556        0
                  Public Accounts
Indian and Native American Program
  Single Audit: Denver Indian Center, Inc.                  08-16-06 21-06-540-03-355          3             0           0
Older Workers Program
  Single Audit: SER Jobs for Progress, Inc.                 05-17-06 21-06-526-03-360          24             0          0
  Single Audit: Senior Service America, Inc.                09-13-06 21-06-563-03-360           6          794,228       0
Job Corps Program
  Job Corps Student Pay Allotment and Management
                                                            09-29-06 03-06-003-01-370          6             0           0
    Information System for 2 Years Ended 9/30/05
  Complaint Involving the Cincinnati Job Corps Center       09-29-06 03-06-004-01-370          0              0          0
  Performance Audit of Job Corps Center Operating Costs 09-29-06 03-06-005-01-370              5           21,174        0
  ABC Georgia Overstated Job Corps Placement
                                                            09-29-06 09-06-004-01-370          6           214,992       0
      Outcomes
  Los Angeles Job Corps Center: Allegations of
                                                            09-29-06 09-06-005-01-370          1           303,870       0
      Misuse of DOL Funds and Property
  Single Audit: YWCA of Greater Los Angeles                 08-16-06 21-06-543-01-370          12          220,000       0
  Single Audit: Future Entrepreneurs and Workers
                                                            08-16-06 21-06-553-01-370          48          10,000        0
                  Training Administration
  Federal Information Security Management Act Audit
      of the Job Corps Student Pay, Allotment, and          09-27-06 23-06-014-01-370          1             0           0
      Management Information System
  Boston Regional Office Procurement of Job Corps
      Center Operator and Service Providers in              09-29-06 26-06-002-01-370          2             0           0
      Puerto Rico
Welfare-to-Work Program
  Welfare-to-Work Grant: The Doe Fund                       09-29-06 02-06-206-03-386          2          1,616,259
Workforce Investment Act
  Westchester-Putnam Counties Consortium for
                                                            09-29-06 02-06-204-03-390          4           128,233       0
      Worker Education and Training Earmark Grant
  St. Charles County’s Department of Workforce
                                                            09-28-06 05-06-001-03-390          2          4,110,061      0
     Development Claim to Missouri is Unsupported
  State of Georgia One-Stop System is a Work in
       Progress, Based on an Audit of Two One-              06-29-06 06-06-002-03-390          0             0           0
       Stop Centers
  Single Audit: State of West Virginia                      06-12-06 21-06-528-03-390          11             0          0
  Single Audit: Ute Mountain Ute Tribe                      06-02-06 21-06-537-03-390           7             0          0
  Single Audit: National Association of Workforce Boards 07-11-06 21-06-538-03-390              6             0          0
  Single Audit: Commonwealth of Kentucky                    07-11-06 21-06-544-03-390           6          565,437       0
  Single Audit: Commonwealth of Northern Marion
                                                            08-31-06 21-06-559-03-390          5           528,046       0
                  Islands
  Single Audit: Government of Guam                          08-31-06 21-06-561-03-390          8           48,412        0
Labor Statistics
  Bureau of Labor Statistics Needs to Remedy
      Significant Security Control Deficiencies for the     09-29-06 23-06-013-11-001          15            0           0
     Producer Price Index System
Goal Totals                                                                 27                190         8,775,219      0




  Semiannual Report to Congress                                                                                               58
  April 1, 2006–September 30, 2006
                                                                  Final Audit and Attestation Reports Issued
                         Appendix

                    Program Name                          Date         Report       # of Nonmonetary Questioned Funds Put to
                    Name of Report                       Issued        Number       Recommendations    Costs     Better Use
                                                                                                        ($)          ($)
                                                       Worker Benefit Programs
Unemployment Insurance Program
 State of California Direct Labor Costs Charged
                                                           09-13-06 03-06-006-03-315        2        76,700,000      0
     to Employment and Training Grants
 Single Audit: State of Michigan Unemployment
                                                           05-16-06 21-06-529-03-315        8           4,286        0
                  Agency Compensation Fund
  Single Audit: State of Michigan Department of
                  Consumer and Industry Services,
                                                           05-16-06 21-06-531-03-315        5          114,867       0
                  Unemployment Agency
                  Administration Fund
 Single Audit: Government of the U.S. Virgin
                                                           07-13-06 21-06-555-03-315        15         36,805        0
                  Islands
Federal Employees’ Compensation Act
 Office of Workers’ Compensation Programs Licensing
     and Confidentiality Procedures for Contract           09-29-06 02-06-207-04-431        2            0           0
      Nurses
 Service Auditors’ Report on the Integrated Federal
     Employees’ Compensation System and                    09-29-06 22-06-011-04-431        0            0           0
     Medical Bill Processing System
Longshore and Harbor Workers’ Compensation
 Longshore and Harbor Workers’ Compensation Act
    Special Fund Financial Statements and                  09-21-06 22-06-008-04-432        0            0           0
    Independent Auditors’ Report
 District of Columbia Workmens’ Compensation
    Act Special Fund Financial Statements and              09-21-06 22-06-009-04-432        0            0           0
    Independent Auditors’ Report
Employees’ Benefit Security
 Resolution of Prior Year Recommendations from the
     Federal Information Security Management Act
      Audit of the Employee Benefits Security              09-29-06 23-06-017-12-001        3            0           0
      Administration’s Employee Retirement Income
      Security Act Filing Acceptance System
Goal Totals                                                                 9               35       76,855,958      0
                                              Worker Safety, Health, and Workplace Rights
Mine Safety and Health
 Coal Mine Hazardous Condition Complaint Process
                                                           09-29-06 05-06-006-06-001        13           0           0
     Should Be Strengthened
Occupational Safety and Health
 Single Audit: State of North Carolina                     07-11-06 21-06-546-10-001        2          82,751        0
 Occupational Safety and Health Administration Needs
     to Remedy Significant Security Control Deficiencies
                                                           09-29-06 23-06-016-10-001        18           0           0
     for the Integrated Management Information System
     Redesign Whistleblower Web Application
Goal Totals                                                                 3               33         82,751
                                                      Departmental Management
Office of the Secretary
 Audit of Spending and Management Control of
                                                           09-29-06 03-06-007-01-001        3            0           0
     Department of Labor Websites
ETA Management
 Single Audit: State of Ohio                               05-04-06 21-06-510-03-001        51            0          0
 Single Audit: Seminole Nation of Oklahoma                 05-16-06 21-06-525-03-001         0         14,939        0
 Single Audit: Commonwealth of Puerto Rico
                  Department of Labor and Human            05-17-06 21-06-535-03-001        43        2,537,509      0
                  Resources, Fiscal Year 2002




  Semiannual Report to Congress                                                                                           59
  April 1, 2006–September 30, 2006
                                                                     Final Audit and Attestation Reports Issued
                          Appendix

                    Program Name                             Date         Report        # of Nonmonetary Questioned Funds Put to
                    Name of Report                          Issued        Number        Recommendations    Costs     Better Use
                                                                                                            ($)          ($)
 Single Audit: Commonwealth of Puerto Rico
                Department of Labor and Human              05-17-06 21-06-536-03-001             0             330,554           0
                Resources, Fiscal Year 2003
 Single Audit: State of Washington, Fiscal
                                                           06-14-06 21-06-539-03-001             8             482,385           0
                Year 2004
 Single Audit: State of North Carolina                     07-11-06 21-06-541-03-001             9              38,478           0
 Single Audit: South Carolina Employment
                                                           08-16-06 21-06-542-03-001            13                0              0
                Security
 Single Audit: State of Tennessee                          07-25-06 21-06-547-03-001            20             352,210           0
 Single Audit: State of Utah                               08-16-06 21-06-549-03-001            12              4,171            0
 Single Audit: National Center on Education and
                                                           08-16-06 21-06-552-03-001             4                0              0
                The Economy
 Single Audit: State of Florida                            08-16-06 21-06-554-03-001            23             205,472           0
 Single Audit: Commonwealth of Pennsylvania                08-18-06 21-06-556-03-001            20              17,041           0
 Single Audit: City and County of Denver,
                                                           08-15-06 21-06-557-03-001             2                0              0
                Colorado
 Single Audit: Maui Economic Development
                                                           09-01-06 21-06-560-03-001             2              47,703           0
                Board, Inc.
 Single Audit: State of Washington, Fiscal
                                                           09-13-06 21-06-562-03-001             5              54,523           0
                Year 2005
OASAM Management
 There is No Evidence Contracting Officers Are
     Checking Required Sources before Making               09-15-06 05-06-004-07-001             3                0              0
     GSA Schedule Procurements
 Office of the Assistant Secretary for Administration
    and Management Needs to Remedy Significant
                                                           09-29-06 23-06-015-07-001            17                0              0
    Control Deficiencies for the Employee Computer
    Network/Departmental Computer Network
Goal Totals                                                                  18                 235           4,084,985

Final Audit and Attestation Report Totals                                    57                 493          89,798,913          0

NOTE:      All single audit reports shown in the above schedule represent audits of States, local governments and nonprofit organizations
           conducted, in accordance with generally accepted government auditing standards, by independent public accounting firms
           and/or state and local government auditors under the Single Audit Act of 1984 and the Single Audit Act Amendments of 1996.
           Upon receipt of the Single Audit report, OIG reviews the report to identify findings and recommendations directed at DOL
           programs. OIG then issues a report to the funding agency that summarizes the DOL findings and recommendations, and
           requests that the funding agency take resolution action on the recommendations within 6 months of the date of the OIG report.




  Semiannual Report to Congress                                                                                                       60
  April 1, 2006–September 30, 2006
                                                                                           Other Reports Issued
                         Appendix

                   Program Name                           Date        Report       # of Nonmonetary Questioned Funds Put to
                   Name of Report                        Issued       Number       Recommendations    Costs     Better Use
                                                                                                       ($)          ($)

                                                  Employment and Training Programs
Job Corps Program
 Alert Report: National Park Service Has Not Assured
    the Safety and Health of Students and Staff at the    07-07-06 26-06-001-01-370        3            0           0
    Oconaluftee Job Corps Center
Workforce Investment Act
 Management Letter: Questionable Eligibility of
    College Students in Mississippi’s National            09-28-06 04-06-008-03-390        3            0           0
     Emergency Grant Training Program
 Alert Report: The Employment and Training
    Administration’s Contract with The Creative
                                                          06-19-06 05-06-005-03-390        1            0           0
    Eye d/ba TCE Digital Solutions is in Violation
    of SBA Section 8(a) Program Requirements
Goal Totals                                                                3               7            0           0
                                                       Worker Benefit Programs
Unemployment Insurance Program
 Management Letter: Individuals Received
    Unemployment Benefits in Louisiana While
                                                          09-29-06 06-06-006-03-315        0          126,663       0
    Receiving Public Service Employment
    Wages in Texas
 Management Letter: Individuals Received
    Unemployment Benefits in Louisiana While
                                                          09-29-06 06-06-007-03-315        0          105,170       0
    Receiving Public Service Employment
    Wages in Louisiana
 Management Letter: Individuals Received
    Disaster Unemployment Assistance in
                                                          09-13-06 06-06-009-03-315        0          54,782        0
    Louisiana While Receiving Unemployment
    Compensation in Mississippi
 Management Letter: Individuals Received
    Disaster Unemployment Assistance in                   09-29-06 06-06-010-03-315        0          74,382        0
    Both Louisiana and Mississippi
 Management Letter: The States of Texas and
    Mississippi Overpaid Unemployment Benefits to         09-29-06 06-06-011-03-315        0          21,882        0
    Some Texas Public Service Employment Participants
Goal Totals                                                                5               0          382,879       0
                                             Worker Safety, Health, and Workplace Rights
 Management Letter: MSHA Accountability Program
                                                          09-29-06 05-06-007-06-001        5            0           0
    Coal Mine Safety and Health
Goal Totals                                                                1                5            0          0
Other Report Totals                                                        9               12         382,879       0




  Semiannual Report to Congress                                                                                          61
  April 1, 2006–September 30, 2006
                                                   Unresolved Audit Reports Over Six Months Old
                      Appendix

  Agency/        Date                                                                        # of       Questioned
                                        Name of Audit                   Report Number
  Program       Issued                                                                  Recommendations Costs ($)

                                   Nonmonetary Recommendations and Questioned Costs
                     Being Resolved in Conjunction with DOL-Consolidated Financial Statement Audit
CFO/Admin   02/27/98 FY 1997 Consolidated Financial Statements                   12-98-001-13-001  1                  0
CFO/Admin   12/15/05 Findings and Recommendations to the Chief Financial         22-06-001-13-001  1                  0
                      Officer as a Result of an Audit of the U. S. Department of
                      Labor’s Report on Performance and Accountability
              Being Resolved in Conjunction with Longshore and Harbor Workers’ Financial Statement Audit
ESA/DLHWC 09/30/05 Longshore and Harbor Workers’ Compensation Act                22-05-010-04-432  1                  0
                      Special Fund Financial Statements and Independent
                      Auditor’s Report, September 30, 2004 and 2003
           Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Program Agency
ETA/JTPA    09/25/98 Cherokee Nation                                             06-98-009-03-340  1                  0
ETA/OJC     09/22/99 Talking Leaves Job Corps Center                             06-99-010-03-370  2                  0
                      State of Maryland Workforce Agency UI Tax and Benefit
ETA/UIS     09/13/02                                                             23-02-008-03-315 14                  0
                      Information System
ETA/UIS     09/13/02 UI Tax and Benefit Information System Security – ETA        23-02-009-03-315  9                0
DOL/Multi   08/06/02 Single Audit: State of Florida                              22-02-512-50-598  1           38,799
VETS/Admin 09/22/03 GISRA Audit: Veterans’ Employment and Training               23-03-012-02-001  8                0
                      Service
                      UI Tax and Benefit Information System Security –
ETA/UIS     03/11/03                                                             23-03-003-03-315 53                  0
                      Michigan
                      UI Tax and Benefit Information System Security –
ETA/UIS     02/27/03                                                             23-03-005-03-315  1                  0
                      California
                      Audit of Services Provided and Outcomes Obtained for
ETA/WIA     09/30/03 Participants Enrolled in the WIA Dislocated Workers         02-03-204-03-390  2                  0
                      Program During PY 2000
                      Rehabilitation Services and Veterans Programs,
VETS/Admin 12-04/03 Albuquerque, New Mexico                                      06-04-001-02-201  2         1,593,700

                      Despite Assurances to the Contrary DOL Has Not             06-04-002-03-325
ETA/SESA    09/30/04 Maintained Accountability Over Equity in Real Property                        8                  0
                      Held By States
                      State Workforce Agencies’ WIA Grant Programs               06-04-003-03-325
ETA/SESA    09/30/04                                                                               1                  0
                      AreAccruing Federal Equity in Real Properties
                      Performance Audit of Health Coverage Tax Credit            02-05-204-03-330
ETA/TAA     09/30/05                                                                               2                  0
                      (HCTC) Bridge and Gap Programs
                      Award and Management of Contracts for Encryption
OASAM/DIRM 03/31/05 Software Were Significantly Flawed                           05-05-005-07-720  1                  0

ETA/Admin   09/14/05 Single Audit: The Navajo Nation                             21-05-546-03-001 16           68,962
                      Federal Information Security Management Act Audit –
ETA/UIS     09/28/05                                                             23-05-019-03-315 27                  0
                      State of Texas UI and Tax Benefit System
ETA/WTW     09/26/05 Seminole Nation of Oklahoma                                 21-05-553-03-386  3           10,434
ETA/WIA     09/14/05 Single Audit: Seminole Nation of Oklahoma                   21-05-555-03-390  6                0
ETA/WIA     09/28/05  Single Audit: Oglala  Sioux                                21-05-560-03-390  8           62,851
                      MSHA Procurements Showed Pattern of Disregard for
MSHA/Admin 10/29/04 Federal and Department of Labor Acquisition Rules and 25-05-001-06-001         1                  0
                      Requirements
ETA/WIA     07/10/06 Single Audit: Powhatan Renape Nation                        21-06-511-03-390  2                0
ETA/WIA     04/02/05  Single Audit: Trimmer   Education   Foundation             21-05-508-03-390  2           10,304




Semiannual Report to Congress                                                                                    62
April 1, 2006–September 30, 2006
                                                       Unresolved Audit Reports Over Six Months Old
                      Appendix

  Agency/        Date                                                                             # of       Questioned
                                           Name of Audit                     Report Number
  Program       Issued                                                                       Recommendations Costs ($)
                        Employment Standards Administration Application
ESA/Admin     01/23/06                                                       23-06-003-04-001     5                     0
                        Security Controls
                                        Pending Workforce Investment Act Reauthorization
ETA/WIA       09/30/03 Evaluation of WIA Youth Program                       06-03-006-03-390     1                     0
             Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service
EBSA          03/29/02 Improved Oversight of Cash Balance Plan Lump Sum      09-02-001-12-121     2                     0
                        Distributions Is Needed
                                        Final Management Decision Being Reviewed by OIG
ETA/Admin     03/31/04 Single Audit: State of Montana                        22-04-545-03-001     7               57,000
ETA/WTW       09/30/05 Performance Audit – City of Savannah                  04-05-004-03-386     4            2,856,430
ETA/Admin     01/23/06 ETA Application Security Controls                     23-06-005-03-001     1                    0
                              Final Management Decision Not Issued by Agency by Close of Period
VETS/Gntee    04/30/04   Single Audit: U.S. Veterans Initiative                 22-04-508-02-201    1                  0
VETS/Admin    03/24/05   Single Audit: State of Florida                         21-05-523-02-001    2            245,226
ETA/WIA       09/26/05   Single Audit: Powhatan Renape Nation                   21-05-556-03-390   10              1,000
ETA/WTW       03/31/06   National Puerto Rican Forum                            02-06-201-03-386    3            424,080
                         Management Letter: Grant Implementation Issues for
ETA/WIA       02/28/06   National Emergency Grant Issued to Alabama             04-06-003-03-390    2                   0
                         Department of Economic and Community Affairs
                         Strengthening Efforts to Assess and Account for
OSEC/JCC      09/26/05   Students with Cognitive Disabilities Would Help Job    09-06-001-03-370    3                   0
                         Corps Achieve Its Mission
OSEC/PCEP 02/08/06       Single Audit: Way Station, Inc.                        21-06-519-01-080    8             93,251
VETS/Gntee 02/08/05      Single Audit: Way Station, Inc.                        21-06-520-02-201    2             95,296
ETA/Admin   11/04/05     Single Audit: State of Arizona                         21-06-504-03-001    8            414,619
ETA/WIA     11/04/04     Single Audit: Sullivan County                          21-06-505-03-390    2            183,508
ETA/WIA     03/23/06     Single Audit: National Association of Workforce Boards 21-06-533-03-390    4            156,249
Total Nonmonetary Recommendations, Questioned Costs                                                238         6,311,709




Semiannual Report to Congress                                                                                      63
April 1, 2006–September 30, 2006
                                                                Investigative Statistics
            Appendix



                                                      Division Totals       Totals
Cases Opened:                                                                325
   Program Fraud                                          265
   Labor Racketeering                                      60

Cases Closed:                                                                321
   Program Fraud                                          252
   Labor Racketeering                                      69

Cases Referred for Prosecution:                                              163
   Program Fraud                                          118
   Labor Racketeering                                      45

Cases Referred for Administrative/Civil Action:                              180
   Program Fraud                                           97
   Labor Racketeering                                      83

Indictments:                                                                 295
   Program Fraud                                          141
   Labor Racketeering                                     154

Convictions:                                                                 260
  Program Fraud                                           145
   Labor Racketeering                                     115

Debarments:                                                                   24
   Program Fraud                                            6
   Labor Racketeering                                      18

Recoveries, Cost Efficiencies, Restitutions, Fines/                      $76,006,826
Penalties, Forfeitures, and Civil Monetary Actions:
   Program Fraud                                      $36,784,654
   Labor Racketeering                                 $39,222,172




Semiannual Report to Congress                                                          64
April 1, 2006–September 30, 2006
                                                                         Investigative Statistics
            Appendix


Recoveries:                                                                          $4,354,905
(The dollar amount/value of an agency’s action to recover or reprogram
funds or to make other adjustments in response to OIG investigations)


Cost-Efficiencies:                                                                   $3,810,571
(The one-time or per annum dollar amount/value of management’s
commitment, in response to OIG investigations, to utilize the
government’s resources more efficiently)

Restitutions:                                                                        $42,415,717
(The dollar amount/value of restitutions resulting from OIG criminal
investigations)


Fines/Penalties:                                                                     $20,594,518
(The dollar amount/value of fines, assessments, seizures,
investigative/court costs, and other penalties resulting from OIG criminal
investigations)

Civil Monetary Actions:                                                              $4,831,115
(The dollar amount/value of forfeitures, settlements, damages,
judgments, court costs, or other penalties resulting from OIG civil
investigations)

Total                                                                                $76,006,826




Semiannual Report to Congress                                                                   65
April 1, 2006–September 30, 2006
                                                                                                                OIG Hotline Activity
                 Appendix

The OIG Hotline provides a communication link between the OIG and persons who
want to report alleged violations of law, rules, or regulations; mismanagement; waste of
funds; abuse of authority; or danger to public health and safety. During this reporting
period, the OIG Hotline received 1,989 contacts. Of these, 1,840 were referred for
further review and/or action.

Contacts Received (by source):
Calls, Correspondence, and Walk-ins from Individuals or Organizations .............................. 1,935
Correspondence from Congress................................................................................................. 11
Correspondence from DOL Agencies ......................................................................................... 10
Letters from Non-DOL Government Agencies ............................................................................ 14
Incident Reports from DOL Agencies ......................................................................................... 13
Reports by OIG Components........................................................................................................ 6
Total ...................................................................................................................................... 1,989

Contacts Referred for Further Review and/or Action:
Referred to OIG Components ..................................................................................................... 99
Referred to DOL Program Management................................................................................... 711
Referred Outside DOL ........................................................................................................... 1,030
Total ...................................................................................................................................... 1,840




Semiannual Report to Congress                                                                                                                 66
April 1, 2006–September 30, 2006
